<html>
<title> - RISE OF THE DRONES: UNMANNED SYSTEMS AND THE FUTURE OF WAR</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





       RISE OF THE DRONES: UNMANNED SYSTEMS AND THE FUTURE OF WAR

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY
                          AND FOREIGN AFFAIRS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 23, 2010

                               __________

                           Serial No. 111-118

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform

                                ______

                  U.S. GOVERNMENT PRINTING OFFICE
 64-921 PDF               WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001











              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       JOHN J. DUNCAN, Jr., Tennessee
WM. LACY CLAY, Missouri              MICHAEL R. TURNER, Ohio
DIANE E. WATSON, California          LYNN A. WESTMORELAND, Georgia
STEPHEN F. LYNCH, Massachusetts      PATRICK T. McHENRY, North Carolina
JIM COOPER, Tennessee                BRIAN P. BILBRAY, California
GERALD E. CONNOLLY, Virginia         JIM JORDAN, Ohio
MIKE QUIGLEY, Illinois               JEFF FLAKE, Arizona
MARCY KAPTUR, Ohio                   JEFF FORTENBERRY, Nebraska
ELEANOR HOLMES NORTON, District of   JASON CHAFFETZ, Utah
    Columbia                         AARON SCHOCK, Illinois
PATRICK J. KENNEDY, Rhode Island     BLAINE LUETKEMEYER, Missouri
DANNY K. DAVIS, Illinois             ANH ``JOSEPH'' CAO, Louisiana
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
JUDY CHU, California

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

         Subcommittee on National Security and Foreign Affairs

                JOHN F. TIERNEY, Massachusetts, Chairman
CAROLYN B. MALONEY, New York         JEFF FLAKE, Arizona
PATRICK J. KENNEDY, Rhode Island     DAN BURTON, Indiana
CHRIS VAN HOLLEN, Maryland           JOHN L. MICA, Florida
PAUL W. HODES, New Hampshire         JOHN J. DUNCAN, Jr., Tennessee
CHRISTOPHER S. MURPHY, Connecticut   MICHAEL R. TURNER, Ohio
PETER WELCH, Vermont                 LYNN A. WESTMORELAND, Georgia
BILL FOSTER, Illinois                PATRICK T. McHENRY, North Carolina
STEVE DRIEHAUS, Ohio                 JIM JORDAN, Ohio
STEPHEN F. LYNCH, Massachusetts      JEFF FORTENBERRY, Nebraska
MIKE QUIGELY, Illinois               BLAINE LUETKEMEYER, Missouri
JUDY CHU, California
                     Andrew Wright, Staff Director












                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 23, 2010...................................     1
Statement of:
    Singer, Peter W., director, 21st Century Defense Initiative, 
      the Brookings Institution; Ed Barrett, director of 
      research, Stockdale Center for Ethical Leadership, U.S. 
      Naval Academy; Kenneth Anderson, professor, Washington 
      College of Law, American University; John Jackson, 
      professor of Unmanned Systems, U.S. Naval War College; and 
      Michael Fagan, chair, Unmanned Aerial Systems Advocacy 
      Committee, Association for Unmanned Vehicle Systems 
      International..............................................     6
        Anderson, Kenneth........................................    19
        Barrett, Ed..............................................    13
        Fagan, Michael...........................................    53
        Jackson, John............................................    34
        Singer, Peter W..........................................     6
    Sullivan, Michael J., Director, Acquisition and Sourcing 
      Management, U.S. Government Accountability Office; Dyke 
      Weatherington, Deputy, Unmanned Aerial Vehicle Planning 
      Taskforce, Office of the Under Secretary for Acquisition, 
      Technology and Logistics, U.S. Department of Defense; and 
      Kevin Wolf, Assistant Secretary for Export Administration, 
      Bureau of Industry and Security, U.S. Department of 
      Commerce...................................................    77
        Sullivan, Michael J......................................    77
        Weatherington, Dyke......................................    99
        Wolf, Kevin..............................................   113
Letters, statements, etc., submitted for the record by:
    Anderson, Kenneth, professor, Washington College of Law, 
      American University, prepared statement of.................    21
    Barrett, Ed, director of research, Stockdale Center for 
      Ethical Leadership, U.S. Naval Academy, prepared statement 
      of.........................................................    16
    Fagan, Michael, chair, Unmanned Aerial Systems Advocacy 
      Committee, Association for Unmanned Vehicle Systems 
      International, prepared statement of.......................    55
    Jackson, John, professor of Unmanned Systems, U.S. Naval War 
      College, prepared statement of.............................    37
    Singer, Peter W., director, 21st Century Defense Initiative, 
      the Brookings Institution, prepared statement of...........     9
    Sullivan, Michael J., Director, Acquisition and Sourcing 
      Management, U.S. Government Accountability Office, prepared 
      statement of...............................................    79
    Weatherington, Dyke, Deputy, Unmanned Aerial Vehicle Planning 
      Taskforce, Office of the Under Secretary for Acquisition, 
      Technology and Logistics, U.S. Department of Defense, 
      prepared statement of......................................   101
    Wolf, Kevin, Assistant Secretary for Export Administration, 
      Bureau of Industry and Security, U.S. Department of 
      Commerce, prepared statement of............................   115

 
       RISE OF THE DRONES: UNMANNED SYSTEMS AND THE FUTURE OF WAR

                              ----------                              


                        TUESDAY, MARCH 23, 2010

                  House of Representatives,
     Subcommittee on National Security and Foreign 
                                           Affairs,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m. in room 
2154, Rayburn House Office Building, Hon. John F. Tierney 
(chairman of the subcommittee) presiding.
    Present: Representatives Tierney, Flake, Foster, 
Luetkemeyer, and Quigley.
    Staff present: Andy Wright, staff director; Bronwen De 
Sena, intern; Talia Dubovi, counsel; Elliot Gillerman, clerk; 
Linda Good, deputy clerk; Carla Hultberg, chief clerk; LaToya 
King, fellow; Adam Fromm, minority chief clerk and Member 
liaison; Tom Alexander, minority senior counsel; Christopher 
Bright, minority senior professional staff member; and Renee 
Hayes, minority Defense fellow.
    Mr. Tierney. A quorum being present, the Subcommittee on 
National Security and Foreign Affairs' hearing entitled, ``Rise 
of the Drones: Unmanned Systems and the Future of War,'' will 
come to order.
    I ask unanimous consent that only the chairman and ranking 
member of the subcommittee be allowed to make opening 
statements.
    Without objection, so ordered.
    I ask unanimous consent that the hearing record be kept 
open for 5 business days so that all members of the 
subcommittee be allowed to submit a written statement for the 
record.
    Without objection, so ordered.
    Good afternoon. It is nice to see all of you here. I 
apologize that I was a bit late, and Mr. Flake and I didn't 
have much time to spend with you before you came, but we think 
we will get fully acquainted through your testimony and your 
comments on that in the question and answer period. We 
certainly hope that is the case.
    Our hearing today introduces a new topic to the 
subcommittee, the rise of unmanned systems and their 
implications for U.S. national security. Over the last decade, 
the number of unmanned systems and their applications has grown 
rapidly. So, too, has the number of operational, political and 
legal questions associated with the technology.
    To illustrate the wide variety of unmanned systems and some 
of their applications, we wanted to share some short video 
clips or unmanned systems ranging from the harmless to the 
lethal. The first system is clearly on the harmless side of the 
spectrum.
    [Video shown.]
    Mr. Tierney. I know from first-hand experience that was 
made in my district, the I-Robot, of course, not the cat, the 
robot is over there. [Laughter.]
    Video two shows that other systems provide support to our 
warfighters. This particular slide is the Ripsaw MS-1, a remote 
gun tank that can travel at speeds of up to 60 miles per hour 
and can carry a payload of up to 2,000 pounds. As you will see, 
it can also be used to pull vehicles and other items that are 
potential security risks.
    [Video shown.]
    Mr. Tierney. Video three is known as the Big Dog, a four-
legged robot that can walk through sand, snow and ice while 
carrying up to 340 pounds on its back and serving as a robotic 
pack mule. As you will see, it can retain its balance on uneven 
surfaces and can handle rough terrain.
    [Video shown.]
    Mr. Tierney. Looks like a dance class gone bad. [Laughter.]
    And video four is the Raven UAV, used primarily for 
surveillance. And as you will see, it is hand-launched and 
remote-controlled from the field. The editor of a magazine 
recently built a homemade version of the Raven for around 
$1,000.
    [Video shown.]
    Mr. Tierney. That is, of course, what you are seeing from 
the Raven's equipment. That isn't the Raven making that buzzing 
noise, either. [Laughter.]
    It basically means that we are going to have votes in a 
short while and what we will do is we will probably finish our 
opening remarks and break, hopefully briefly, for a couple of 
votes and come back. We apologize. We can probably expect that 
to happen a little bit throughout the afternoon.
    The last and final clip shows the most lethal side of 
unmanned systems. Some of you may be familiar with footage 
similar to this. This is unclassified footage from an Army 
unmanned aerial vehicle engaging combatants in Iraq.
    [Video shown.]
    Mr. Tierney. Growing demand for and the reliance on 
unmanned systems has serious implications both on and off the 
battlefield. As the United States is engaged in two wars 
abroad, unmanned systems, particularly unmanned aerial 
vehicles, have become a centerpiece of that war effort.
    In recent years, the Department of Defense's UAV inventory 
has rapidly grown in size, from 167 in 2002 to over 7,000 
today. Last year for the first time, the U.S. Air Force trained 
more unmanned pilots than traditional fighter pilots.
    Some express no doubt that unmanned systems have been a 
boost to U.S. war efforts in the Middle East and South Asia. 
CIA Director Leon Panetta said last May, ``Drone strikes are 
the only game in town in terms of confronting or trying to 
disrupt the Al Qaeda leadership.'' Media reports over the last 
year indicating that the top two leaders of the Pakistani 
Taliban were killed by drone strikes also are used to support 
that argument.
    But some critics argue that drone strikes are unethical at 
best and counterproductive at worst. They point to the 
reportedly high rate of civilian casualties, which has been 
calculated by the New America Foundation to be around 32 
percent, and argue that the strikes do more to stoke anti-
Americanism than they do to weaken our enemies. A quick skim of 
any Pakistani newspaper provides some evidence to support this 
theory.
    This is particularly relevant in the era of 
counterinsurgency doctrine, the central tenet of which is first 
do no harm. It also may be the case that we are fighting wars 
with modern technology under an antiquated set of laws. For 
example, if the United States uses unmanned weapons systems, 
does that require an official declaration of war or an 
authorization for the use of force? Do the Geneva Conventions, 
written in 1949, govern the prosecution of an unmanned war? Who 
is considered in lawful combat in unmanned war, the Air Force 
pilot flying a Predator from thousands of miles away in Nevada? 
Or the civilian contractor servicing it on the airstrip in 
Afghanistan?
    If unmanned systems are changing the way that we train our 
military personnel, so too should they change the way that we 
respond to the stress of combat. We already know that unmanned 
pilots are showing signs of equal or greater stress from combat 
compared to traditional pilots. The stress of fighting a war 
thousands of miles away then minutes later joining your family 
at the dinner table presents mental health challenges that must 
be addressed.
    On the domestic front, manufacturers have already developed 
a number of unmanned commercial products and are likely to find 
more applications for this technology in the future. From 
vacuum cleaners to crop dusters, traditional items that require 
manual operation are rapidly being rendered obsolete by 
unmanned technology. UAVs are now being used for environmental 
monitoring, particularly in hard to reach places like the North 
Pole. Last fall, the University of North Dakota chartered a 4-
year degree program in UAV piloting.
    These trends are already forcing us to ask new questions 
about domestic air and space regulation. Who is allowed to own 
unmanned systems? And where are they allowed to operate?
    Additionally, as more law enforcement and border security 
services come to use unmanned systems, important questions 
continue to emerge about the protection of privacy. As this 
technology develops and becomes more commercially available, we 
must implement adequate measures to prevent it from falling 
into the wrong hands. At least 40 other countries are currently 
developing unmanned systems technology, including Iran, Russia 
and China.
    We already know that during the Israeli-Lebanon war in 
2006, Hezbollah deployed three surveillance UAVs that it 
acquired from Iran. A recent Air Force study concluded that a 
UAV is an ideal platform for a chemical or biological terrorist 
attack. As Peter Singer, one of our witnesses today, wrote 
recently in Newsweek, ``For less than $50,000, a few amateurs 
could shut down Manhattan.''
    We have to ensure that the appropriate government agencies 
are coordinating their efforts to prevent this technology from 
proliferating and falling into the wrong hands, and also to 
ensure that we have adequate homeland security measures to 
respond to those threats.
    And finally, as the new technology continues to develop, we 
must ensure that there are adequate measures to prevent waste, 
fraud and abuse in the acquisition process. A 2009 study by the 
U.S. Government Accountability Office, the author of which we 
will hear from today, reported significant cost growth, 
schedule delays and performance shortfalls in DOD's UAV 
acquisition process. This analysis raises serious concerns and 
I look forward to learning more on this from both the 
Government Accountability Office and the Department of Defense 
witnesses appearing before us.
    These are some of the questions that we will begin to 
answer at this hearing. Surely, we are not going to have a 
conclusion to all of those questions during this afternoon's 
single day of conversation. But I hope that this hearing serves 
as a thorough introduction to the topic for the purpose of 
educating and informing our Members, as well as the American 
public.
    With that, I would like to defer to Mr. Flake for his 
opening remarks.
    Mr. Flake. I thank the chairman. I wish we had a couple of 
drones that could go and vote for us so we wouldn't have to go 
and then come back, but I am afraid we have to do it ourselves.
    To many, the increased number of suspected terrorists 
killed between 2008 and 2009 indicates that the Obama 
administration has used UAV technology with great success. At 
the same time, while DOD is carrying out UAV missions, others 
in the administration are disputing the legality of their own 
tactics and avoiding taking personal responsibility for them.
    Such discord within the administration could open the door 
to a number of legal questions and perhaps put an entire arm of 
our military strategy in Afghanistan and Pakistan at risk. I am 
hopeful that today's hearing will shed some light on this, and 
we can see a way forward.
    And I thank the chairman for holding the hearing.
    Mr. Tierney. Thank you.
    With that, we will recess for probably about a half hour, 
if the witnesses want to get a cold drink or something while we 
are doing that, and we should be back about quarter to or maybe 
just a little bit after that.
    Thank you.
    [Recess.]
    Mr. Tierney. Well, thank you for your patience and your 
forbearance. The subcommittee will now receive testimony from 
the first panel before us today. I would like to introduce them 
across the board before we get started, and then we will go to 
the 5-minutes for each.
    Dr. Peter W. Singer is a senior fellow and director of the 
21st Century Defense Initiative at the Brookings Institution. 
His work there focuses on the future of war, current U.S. 
defense needs, and the future of the U.S. defense system. Dr. 
Singer has published several books and articles, including most 
recently, Wired for War: The Robotics Revolution and Conflict 
in the 21st Century.
    And I know it is not exactly getting a recommendation from 
Oprah, but I have read it, in the process of reading it, and it 
is a good read and well worth doing.
    He was recently named by Foreign Policy Magazine as 1 of 
the top 100 global thinkers of 2009. Dr. Singer received a B.A. 
from the Woodrow Wilson School at Princeton University and a 
Ph.D. from Harvard University.
    Dr. Edward Barrett is the director of research at the U.S. 
Naval Academy's Stockdale Center for Ethical Leadership, and a 
professor in the Department of Leadership, Ethics and Law. He 
joined the Naval Academy in 2006 after returning from active 
duty in Iraq and Afghanistan. He currently serves in the U.S. 
Air Force Reserve.
    Dr. Barrett holds a B.S. from the University of Notre Dame 
and a Ph.D. from the University of Chicago.
    Mr. Kenneth Anderson is a professor at the Washington 
College of Law at American University and a research fellow at 
Stanford University's Hoover Institution. He is an authority on 
international human rights, war, armed conflict and terrorism. 
Mr. Anderson has previously served on the board of directors of 
America's Watch, the precursor to Human Rights Watch, and is 
the Founder and former Director of the Human Rights Watch Arms 
Division.
    He holds a B.A. from UCLA and a J.D. from Harvard 
University.
    Mr. John Jackson is a professor of Unmanned Systems at the 
U.S. Naval War College where he is currently teaching a self-
designed course entitled, ``Case Studies in Technology and 
Warfare: Unmanned Systems.'' Mr. Jackson served for 27 years in 
the U.S. Navy as a supply and logistics specialists before 
retiring with the rank of Captain. An award-winning author, he 
has extensively studied history and operational uses of modern 
aircraft.
    He holds degrees from Providence College and Salve Regina 
University, where he is currently a Ph.D. candidate.
    And Mr. Michael Fagan is the chair of the Unmanned Systems 
Advocacy Committee for the Association for Unmanned Vehicle 
Systems International. He served for 26 years in the U.S. 
Marine Corps, including time as a Requirements Officer for 
Unmanned Aircraft, before retiring as a Colonel and Chief of 
Staff of the Defense Airborne Reconnaissance Office. He 
currently serves as the chief operating officer of Logos 
Technologies.
    He holds a B.S. from Indiana University and an M.S. from 
the University of Southern California.
    Again, I want to thank all of the witnesses for making 
themselves available today and sharing with us their expertise.
    It is the policy of this subcommittee to swear in the 
witnesses before they testify. I ask all of you to please stand 
and raise your right hands.
    Thank you.
    [Witnesses sworn.]
    Mr. Tierney. The record will please acknowledge that all of 
the witnesses answered in the affirmative.
    As I think you already know, all of your written testimony 
will be entered in the record by unanimous consent. We like to 
allocate 5 minutes, if we can, for people to generalize their 
testimony so we can get to the question and answer period. The 
green light will be on. When there is 1 minute remaining, the 
amber light will go on. And when the 5-minutes is up, the red 
light will go on, at which point we would like you to try to 
wind down if you are not already at that point so we can move 
to the other witnesses and then questions.
    Dr. Singer, we will start with you, please.

 STATEMENTS OF PETER W. SINGER, DIRECTOR, 21ST CENTURY DEFENSE 
INITIATIVE, THE BROOKINGS INSTITUTION; ED BARRETT, DIRECTOR OF 
 RESEARCH, STOCKDALE CENTER FOR ETHICAL LEADERSHIP, U.S. NAVAL 
  ACADEMY; KENNETH ANDERSON, PROFESSOR, WASHINGTON COLLEGE OF 
 LAW, AMERICAN UNIVERSITY; JOHN JACKSON, PROFESSOR OF UNMANNED 
  SYSTEMS, U.S. NAVAL WAR COLLEGE; AND MICHAEL FAGAN, CHAIR, 
  UNMANNED AERIAL SYSTEMS ADVOCACY COMMITTEE, ASSOCIATION FOR 
             UNMANNED VEHICLE SYSTEMS INTERNATIONAL

                  STATEMENT OF PETER W. SINGER

    Dr. Singer. Thank you very much, Mr. Chairman and members 
of the committee, for the opportunity to testify today. It is 
an honor to be part of this important discussion on an issue 
that is not only crucial to national security, but often 
crucially misunderstood.
    As background, I work at the Brookings Institution where I 
lead our research and analysis on 21st century defense issues. 
Several years ago, I began to be quite interested in the issues 
of the greater use of robotics in our human wars. And so I set 
out on a journey to interview the variety of actors in this 
world, everything from the scientists who were building these 
machines to the science fiction authors who advised the 
military, to those in the military, everything from the 19 year 
old operators who were controlling machines 7,000 miles away, 
all the way up to the four star Generals that command them.
    I was also interested in the politics of this, so 
interviews with, for example, White House advisers and civilian 
service secretaries.
    Finally, the opposite side of the coin, what do insurgents 
think about this? What do news editors around the Middle East 
think about all of this? And then finally the right and wrong 
and the legal and ethical questions of this, so interviews with 
military lawyers, but also people at groups like Human Rights 
Watch.
    And the book, Wired for War, gathers these stories 
together, but I think it also illustrates some of the dilemmas 
and questions that are emerging from this field.
    And so what I would like to do today is briefly walk 
through what I see some of the key issues here.
    The first is to pull back in this important domain. When 
U.S. forces invaded Iraq in 2003, we had a handful of unmanned 
systems in the air. We now have over 7,000. On the ground, the 
invasion force had zero. We now have over 12,000 in the U.S. 
military inventory.
    But we need to remember that while these technologies often 
look like science fiction, they are only the first generation. 
They are the equivalent of the Model T Ford or the Wright 
Brothers Flyer. And the historic parallels that people make to 
where we are right now I think are quite instructive. Some 
scientists parallel where we are with unmanned systems to where 
we were with horseless carriages back in 1909 or 1910. Many in 
the military, particularly the Air Force, make the comparison 
to the airplane back in 1918. Others in commerce, for example, 
Bill Gates of Microsoft, has said we are around where we were 
with computers back in 1980. Still others make the comparison 
to the atomic bomb in the late 1940's.
    The point here is that these are issues. These are all 
technologies that had ripple effects on our world, in 
everything from our politics to our laws to our commerce to our 
ethics. And these were all technologies that created deep 
questions for us in the area of the creation of law and 
oversight. And that is why I think it is very important for 
this committee, that they are dealing with it.
    So what do I see as some of the key questions moving 
forward? The first is the question of where the unmanned 
military is headed. We have gone from barely using robotics to 
using thousands of them in a bureaucratic blink of an eye. But 
as one U.S. Air Force Captain put it to me out in CENTCOM, the 
problem is, ``It is not `let's think this better.' It is `only 
give me more'.''
    So the sort of issues that we are wrestling with within 
this bucket are questions like: What are the proper doctrines 
that we should choose? What are the structures and 
organizations that we should build around these systems? How do 
we maintain competition and experimentation in an emerging 
sector in the defense industrial base?
    How do we ensure digital systems security so that 
insurgents in Iraq can't access our information using $30 
software that they bought off the Internet? How do we better 
support the men and women who are operating them, who may not 
be in the physical war zone, but are experiencing an entirely 
new type of combat stress? And finally, what is the division of 
warrior and civilian in this space? That is, if this area is 
the future of the force, what does it mean that, for example, 
75 percent of the maintenance of our Predator fleet has been 
outsourced to private companies, while Army systems operating 
in Iraq have been described as, government-owned, contractor-
operated?
    The second issue area that we have to wrestle with is, are 
we engaged in three wars? Our unmanned systems have carried out 
119 known air strikes into Pakistan, which is about triple the 
number we did with manned bombers in the opening round of the 
Kosovo War. But Congress has not had a debate about whether to 
authorize or disapprove of it.
    And so the question is, why do we not view it as a war? Is 
it because the strikes are being carried out by the CIA and not 
by the military, and thus not following the same lines of 
authority and authorization? Or is it because the impact on the 
public is viewed as costless?
    And then related to this is the issue of what is the impact 
on the broader war of ideas, not just how it is being 
interpreted here in the United States, but how is it being 
interpreted abroad.
    The next issue bucket is the question of law. Can our 20th 
century laws of war keep up with our 21st century technologies? 
Robotics don't remove the human from decisionmaking, but they 
do move that human role geographically and chronologically. 
That is, decisions that determine a machine's action in the 
here and now may be made by an operator several thousand miles 
away or by a designer years ago, but the prevailing laws of war 
are from the 1940's.
    This also extends to the domestic side. It is not just an 
issue of accountability, but the question of regulation. It is 
not just the military that is using these systems, but for 
example, the Department of Homeland Security. In turn, we have 
seen civilian border patrols or vigilante groups operating 
their own unmanned systems in the air. Criminals have started 
to use them to scout out targets.
    So as the FAA debates the opening up of the air space, we 
also have broad issues of who can utilize these systems, which 
is a legal issue. But it also raises long-term questions that I 
remember discussing with a Federal District Court Judge. They 
believed it will reach the Supreme Court in terms of issues of 
probable cause and privacy.
    And the final question area that I would raise is: How can 
we keep America from going the way of Commodore Computers? If 
this is a growing industry along the lines of computers or 
automobiles, why does the United States not have a national 
robotics strategy? What does it mean for us moving forward that 
43 other nations are also building, buying and utilizing 
military robotics? How do we stay ahead in this game?
    And then we may even need to think more broadly about this. 
And what direction does the state of the American manufacturing 
economy, as well as the state of science and mathematics 
education in our schools have us headed? Or another way of 
putting this is: What does it mean to deploy more and more 
soldiers, so to speak, whose hardware increasingly says ``made 
in China'' on the back of it, and whose software is 
increasingly written by someone sitting in a place like India.
    And I would end on this. These questions move us into lots 
of different directions, but I think within them we find the 
policy answers. That is, we may debate the specifics of the 
answers, but almost all of them extend from a gap of some sort 
in our policy as the technology races ahead of our 
institutions.
    And so, for that I thank you for the opportunity to be part 
of this discussion today.
    [The prepared statement of Dr. Singer follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Tierney. Thank you. That gives us a lot to think about.
    Dr. Barrett.

                    STATEMENT OF ED BARRETT

    Dr. Barrett. Mr. Chairman and subcommittee members, thank 
you for inviting me to speak today.
    Speaking as a civilian academic, I will first offer some 
reflections on these systems' ethical advantages and 
challenges, and then briefly discuss related educational 
initiatives at the Naval Academy.
    The goals animating the development and use of unmanned 
platforms are ethically commendable. While sometimes excoriated 
as merely prudential, effectiveness and efficiency are 
fundamentally moral imperatives. Constituted and supported by 
its citizen taxpayers, the liberal democratic state is morally 
obligated to effectively defend their human rights with their 
limited resources.
    Additionally, I would argue that unmanned systems are 
consistent with a society's duty to avoid unnecessary risks to 
its combatants, a duty that sparked a recent controversy over 
up-armored vehicles.
    But these rights and corresponding duties must be weighed 
against other ethical considerations. The venerable just war 
criteria that now undergird international law specify both pre-
war and in-war imperatives. To be permissible, war must be the 
last resort available to a state intending to pursue a just 
cause, and circumstances must indicate a reasonable chance of 
succeeding in a proportionate manner.
    Once in war, harms must be necessary and proportionate vis-
a-vis uninvolved civilians who maintain their right not to be 
harmed. Soldiers incur additional risks to avoid foreseeable 
harm to innocents and assign greater weight to this harm.
    In this normative context, I will highlight four challenges 
generated by unmanned systems. First, they could encourage 
unjust wars. War cost reductions, of course, allow states to 
more readily pursue just causes. But favorable alterations to 
pre-war proportionality calculations could also reduce the 
rigor with which nonviolent alternatives are pursued and thus 
encourage unnecessary and therefore unjust-wars.
    Additionally, an echoing concern about private security 
firms and cyber-attack capabilities, these less visible weapons 
could facilitate the circumvention of legitimate authority and 
pursuit of unjust causes.
    While these moral hazards do not require us to maximize war 
costs and minimize unmanned systems, they do require efforts to 
better inform and monitor national security decisionmakers.
    Second, once in war, remote controlled systems are said to 
induce unnecessary and disproportionate harm, especially to 
civilians. The argument assumes that soldiers engaged in such 
virtual warfare are less situationally aware and also less 
restrained because of emotional detachment. However, 
accumulating data points in the opposite direction, sensor 
improvements, lack of fear-induced haste, reduced anger levels 
and force protection anxieties, and crystal clarity about 
strike damage all combine to actually enhance awareness and 
restraint.
    If true, this data suggests that it would be unethical not 
to use remote-controlled systems unless mitigating factors 
pertained.
    This qualification brings us to a third ethical 
consideration. Reasonable chance of success in 
counterinsurgency and stability operations mentioned earlier, 
where indigenous perceptions are crucial, requires the 
judicious use of unmanned systems. Perceptions that these 
weapons are less discriminate or are indicative of flawed 
characters or tepid commitments can undermine our efforts 
unless accompanied by adjustments to footprints and perceptions 
themselves.
    Also, ground robots are incapable of developing necessary 
personal relationships with local citizens. Again, these 
arguments suggest the need for prudent, not unreflective, 
limitations.
    But the use of autonomous strike systems, my fourth and 
final ethical consideration, requires more caution. Again, 
effectiveness and efficiency would be important benefits. Truly 
robotic air, sea and ground capabilities would sense, decide 
and act more quickly than human beings. In an anti-access 
environment, a long range system capable of independently 
navigating to identifying and striking mobile targets would 
bolster conventional extended deterrence. And the need to 
merely monitor, not control, these systems would reduce 
personnel costs.
    But exactly what would these autonomous systems sense, 
decide and do? Would they adequately distinguish combatants 
from illegitimate targets such as bystanding civilians and 
surrendering or injured soldiers, a task complicated by 
countermeasure requirements? Would they adequately, at least as 
well as humans, comply with necessity and proportionality 
imperatives?
    Discouraging these possible in bello errors would require 
the elusive ability to credibly attribute bad results to a 
culprit, designers, producers, acquisition personnel, 
commanders, users, and perhaps even robots themselves. And if 
the notion of robots' responsibility ever becomes meaningful, 
would a self-conscious and wilful machine choose its own ends 
and even be considered a person with rights?
    While robotic personhood is a titillating idea, near-term 
possibilities suggest a focus on the first few concerns. 
Computer scientist Ron Arkin is working assiduously to develop 
adequately discriminating and ethical robots with 
responsibility attribution capabilities, and I would not bet 
against him.
    But even then, I would advise an incremental approach 
similar to that used with remote controlled systems: 
intelligence missions first, strike missions later. Given the 
complexity involved, I would also restrict initial strike 
missions to non-lethal weapons and combatant-only areas. 
Permission-seeking and override features should also be 
included.
    One possible exception to this non-lethal recommendation 
would involve autonomous systems that target submarines, 
systems which only would have to identify friendly combatants, 
enemy combatants, and perhaps whales.
    In closing, I want to assure the subcommittee that military 
educators are preparing military operators and staffers to 
think ethically about these and other emerging technologies. At 
the Naval Academy, the core ethics course taken by every second 
year midshipman covers these issues and their theoretical 
foundations. Last year, Dr. Singer delivered an endowed lecture 
to the entire second year class.
    The Department of Leadership, Ethics and Law offers an 
elective dedicated to emerging military technologies, including 
robotics. History and engineering courses that address these 
issues include history of technology, advanced topics in 
robotics, emerging technologies, and systems engineering.
    In April, 300 students in this last class will witness a 
debate between Ron Arkin and his less sanguine critic, Peter 
Asaro. And also in April, the Stockdale Center, for whom I 
work, the Academy's ethics and military policy think tank, will 
host a 2-day conference on the ethical ramifications of 
emerging military technologies attended by instructors from all 
U.S. service academies, staff colleges and war colleges, and 
perhaps by a few congressional staffers who were invited.
    Mr. Chairman and subcommittee members, thank you for the 
opportunity to address these issues and I look forward to your 
questions.
    [The prepared statement of Mr. Barrett follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Tierney. Thank you. At first, I thought you were going 
to have a great debate between yourself on the one hand and on 
the other hand, but you rounded it out pretty well at the end, 
and I appreciate that.
    Now, we have two professors that can audition for talking 
to the entire sophomore class at the Academy someday.
    Professor Anderson.

                 STATEMENT OF KENNETH ANDERSON

    Mr. Anderson. Thank you. Mr. Chairman and subcommittee 
members, thank you very much for having me here with these 
other very, very distinguished panelists.
    I want to actually speak perhaps more politically and more 
practically than would be appropriate. And let me say that my 
background in this is legal and ethical. And here is my 
problem. We currently have a situation in which the President, 
the Vice President, the Director of the CIA, many, many senior 
officials from the President on down have stood up and said 
quite correctly, in my view, this is a really great thing we 
have with drones here. We are managing to take the fight to the 
enemy. This is how we attack Al Qaeda. This is how we actually 
engage in counter-terrorism directly against the leaders of Al 
Qaeda. And we think this is great.
    I think that the Vice President is a little bit like a sort 
of father looking over his block of Predator chicks. I think 
that we are in a situation in which our political leaders and 
our policymakers have embraced a strategy, but if you were to 
line up their lawyers alongside them and ask their lawyers 
about this, I think the answer you would get is, ``Well, we 
think it is legal, but we have actually not come to a clear 
conclusion, at least not one that we were able to share with 
the public.''
    Now, if I were the Vice President or the President under 
those circumstances, I do not think I would find myself to have 
been well served by my lawyers. Lawyers can't be yes men. 
Lawyers cannot be in the position of simply saying what their 
client wants to hear.
    And these are incredibly difficult issues. We are over a 
year into the new administration, which has embraced this 
policy, and we have yet to find any clear statement by their 
lawyers that this program is legal or at least to tell us on 
what basis they think that it is legal.
    Now, I believe that it is, but there is an increasing 
chorus of people in the international legal community and in 
other places that believe that it is not. And I think at some 
point there is going to be a collision that arises here, and 
that question has to be addressed.
    So if there is one point on which I would join with the 
ACLU, which is now suing the U.S. Government for information on 
the legal basis for these programs, it is that I believe at 
this point the U.S. Government has to step up and say the basis 
on which it thinks it is lawful to do these things.
    And that brings me into my second point, which is that most 
of the discussion here on this panel and on the subsequent 
panel is really directed to the military, and to a large extent 
the battlefield use of these weapons systems. That is not 
actually what the President and the Vice President are most 
thoroughly embracing. When Director Panetta stands up and says, 
``This is how we take the fight to the enemy; this is 
terrific,'' they are actually not really most of the time 
talking about the tactical use of these things in an 
Afghanistan battlefield.
    They are talking about the ability to target someone in 
Pakistan who is well away from any kind of hot battlefield at 
that moment. Or we are talking about the ability to take the 
fight to people in Yemen or Somalia or potentially other 
places.
    At that point, 1 millimeter below the surface of this 
discussion about technology and drones is actually a discussion 
about the proper lawful and ethical role of the CIA and the 
covert, or at least clandestine, use of force. I believe that 
the Congress needs to be involved in that question. I believe 
the answer is that it is lawful under domestic law, certainly, 
and I believe it is lawful under international law. But I 
believe that question is certainly coming to the fore.
    This leads me then to my third point, which is that I 
believe that Congress has a role here to play in getting the 
administration to do what is in the President's best interest 
and getting their lawyers to stand up and articulate the full 
extent of the legal defense and the legal rationale that 
accounts for the actual use that the President, the Vice 
President, the CIA Director and the senior members of 
government have embraced.
    They have embraced a strategy of using drones that goes 
well beyond the battlefield in any sort of active hostile 
tactical sense. And if that is the case, then the legal 
rationales that the lawyers state had better be adequate to 
that task, or else they had better say that it can't be done 
and we had better rethink strategy.
    I believe that we have not been willing to confront that. I 
think the administration, for very understandable political 
reasons of many kinds, would prefer not to have that discussion 
directly. I also believe that it is one which is going to 
happen, whether one likes it or not, and that it would be 
better if Congress helped to move that ball forward and move it 
in directions that I think would be favorable.
    So let me sum up by saying that I think that at the end of 
the day, this is actually as much as anything in the area in 
which it is truly controversial, and not simply a question 
about do we have a better remote standoff platform that isn't 
that much different from the jet that has a pilot in it 25 
miles away.
    When we are talking about this as a genuinely innovative 
use at the strategic level, we are no longer so much at this 
moment talking about the U.S. military. We are, as much as 
anything or more, talking about the CIA and covert action, and 
I think that is where the discussion should be.
    Thank you, Mr. Chairman and Members.
    [The prepared statement of Mr. Anderson follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Tierney. Thank you.
    Professor Jackson.

                   STATEMENT OF JOHN JACKSON

    Mr. Jackson. Thank you, Mr. Chairman, for this opportunity 
to speak on two subjects about which I am passionate: the 
education of our dedicated warriors; and the role that unmanned 
systems can and should play in future military operations.
    I am privileged to currently serve as a professor at the 
U.S. Naval War College in Newport, RI. In the fall of 1884, 
just over 125 years ago, the College was formed as a place of 
original research on all questions relating to war or the 
prevention of war. At the time of the College's founding, the 
flagship of the U.S. Navy's North Atlantic squadron was USS 
Tennessee, a wooden-hulled steamship that also carried 22,000 
square feet of sail as backup propulsion system.
    The young military officers who comprised the College's 
first class spent many long hours considering the ways in which 
evolving technologies like wireless communications, electrical 
equipment and long range naval guns would change the nature of 
warfare at the close of the 19th century.
    Now, a century and a quarter later, our students are still 
engaged in serious contemplation of the ways in which 
technology will alter the battlefield, this time in the form of 
a robotics revolution.
    To be clear, the Naval War College is not a technical 
school and issues of systems design and software architecture 
are better suited to the more junior officers attending the 
Naval Postgraduate School in Monterey, CA, where innovative 
research is being conducted at their Center for Autonomous 
Vehicle Research. Rather, the mission of the Naval War College 
is to improve the ability of its students to make sound 
decisions in highly complex and stressful maritime and joint 
environments.
    If trends in computer science and robotics engineering 
continue, it is conceivable that autonomous systems could soon 
be developed that are capable of making life and death 
decisions without direct human intervention.
    The purpose of the new elective course, Unmanned Systems 
and Conflict in the 21st Century, is to provide a forum for the 
consideration of the scientific, ethical and operational issues 
inherent in the employment of these systems. The course 
provides the opportunity for students to study contemporary 
cases, trends and issues in the development and use of unmanned 
systems. The students study and evaluate these systems from the 
tactical, operational and strategic dimensions of war.
    In order to provide a more detailed overview of the course, 
a copy of the current syllabus has been provided with my 
written statement. But in brief, the course looks at the 
hardware issues and the land, air and maritime environments, 
and provides hands on exposure to state-of-the-art systems. It 
then considers the issues of command and control, personnel 
management and the legal and ethical issues of employing these 
systems in national security situations. Students ultimately 
demonstrate their mastery of the subject through research 
requiring both written and verbal presentations.
    I would like to note that significant support for the 
course has been provided by Dr. Peter Singer, the Association 
for Unmanned Vehicle Systems International, a number of 
manufacturers of unmanned systems, educational institutions 
including the Massachusetts Institute of Technology, U.S. Army 
War College, the Department of Defense, and Navy leaders and 
engineers from various program management offices, and the Navy 
Undersea Warfare Center.
    I have made a number of observations based on my direct 
contact with the students who have taken this course and with 
other military officers and practitioners I have met at 
meetings, symposia and conferences.
    These observations: I have found that military officers are 
generally well informed about the exponential growth in the use 
of unmanned systems throughout the Department of Defense. And 
they are highly motivated to probe beyond the headlines and 
promotional hype to ascertain the true capabilities and 
limitations of current technology.
    They have a keen interest in understanding the full range 
of research and development activities now underway, 
particularly with regard to those systems that could be fielded 
in the near term that could impact on their critical 
warfighting abilities.
    They have an intense desire for knowledge about unmanned 
systems, and this is evident across all branches of the Armed 
Service, with many government agencies, and it extends to our 
international partners and allies.
    Students are acutely aware of the ethical and legal issues 
associated with the employment of robotic systems in combat. Of 
particular concern is the possibility that unmanned robotic 
systems could be programmed to make lethal decisions in combat 
situations without active human participation in the kill 
chain. And they are keenly aware that unmanned and robotic 
systems could represent a true revolution in military affairs 
that has the potential to alter career fields, training 
pipelines and combat tactics. They don't fear the future, but 
they are mindful of the need to skillfully manage the impact of 
this disruptive technology.
    My final observations pertain to the professionalism and 
vision of the many people I have encountered while developing 
and teaching this course. At Navy headquarters, the Chief of 
Naval Operations, Admiral Gary Roughead, has been a strong and 
vocal advocate for unmanned systems, about which he has said, 
``This is the right way. This is the way we have to go, and it 
will make us much, much more effective.''
    I believe the message is getting through at all levels of 
the Navy, and whenever I have sought information or requested 
senior leaders to travel to the College to speak with students 
or when I have participated at conferences and symposia, I 
received immediate and unqualified support.
    Additionally, I have been particularly impressed with the 
people I have met from academia, the scientific engineering 
communities, and industry, all of whom are working tirelessly 
to bring the potential of unmanned systems to fruition.
    Finally, I salute our elected officials as represented by 
members of this subcommittee who seek to ensure that neither 
organizational inertia, nor the tendency to protect the status 
quo will keep America from using the drive and genius of her 
people to devise and utilize technology as necessary to protect 
our citizens, our economy and our Nation.
    I am prepared to entertain any questions, and since there 
are so many educators on the panel, I will pass out the quiz. 
[Laughter.]
    [The prepared statement of Mr. Jackson follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Tierney. Thank you very much.
    Before we go to Mr. Fagan, just let me tell the folks that 
are in the audience here, they are here as the guests of 
Congress to participate and listen as citizens to this hearing. 
We don't really countenance any disruption, whether that is 
speaking out loud in the middle of the hearing or raising signs 
or any other kinds of disturbances. So we ask your cooperation 
in that regard. If we do that, we will be able to get through 
the hearing and hopefully we will all learn something and it 
will help us set policy.
    Mr. Fagan, your 5 minutes, please.

                   STATEMENT OF MICHAEL FAGAN

    Mr. Fagan. Mr. Chairman and members of the subcommittee, 
thank you for this opportunity to address the subcommittee. My 
name is Michael Fagan. I chair the Unmanned Aircraft Systems 
Advocacy Committee for the Association for Unmanned Vehicle 
Systems International. It is an honor to represent the world's 
largest nonprofit organization devoted exclusively to advancing 
the unmanned systems community.
    While national defense still is the primary use of unmanned 
aerial systems, there is much more that these systems can do 
and are doing to protect our Nation and its citizens. There are 
many technological reasons for the rise in applications of 
unmanned systems. I will briefly mention two.
    One reason is that detection, surveillance, measurement, 
and targeting are more effective when done as close to the 
observable as possible. This axiom applies to military systems 
as much as it does to everyday life. Small and medium size UAS 
put military payloads close to hostile forces for very long 
periods of time, while significantly reducing risk to friendly 
forces.
    Another reason is that size, weight and power [SWAP], 
requirements for equivalent data processing and storage 
capabilities are decreasing. Last month, for example, the 
Office of Naval Research completed the first test flights of 
key elements of a 50-pound persistent surveillance imagery 
payload for Shadow class UAS. The Shadow's model is the one 
closest to me on the table.
    A similar operational payload is 1,000 pounds and needs a 
commuter size aircraft with a crew to put it in its necessarily 
predictable orbit overhead a hostile target. As reduced SWAP 
allows more data processing to move on board the UAS, available 
datalink bandwidth can transmit to the ground more products 
that are more relevant to more analysts over larger areas 
compared with the raw data that we send to the ground today.
    Additionally, processing on board the unmanned aircraft 
automates intelligence analysis tasks and increasingly permits 
the same number of analysts to be effective over a greater 
area.
    UAS technology will continue to increase in the current 
U.S. regulatory environment, but it will more efficiently and 
effectively provide benefits to warfighters if UAS 
manufacturers can more easily and frequently get access to the 
air space that permits the research, development, tests and 
evaluation flights. AUVSI is in favor of FAA rulemaking that 
will enable increased air space access for UAS manufacturers.
    UAS manufacturers also depend significantly on engineers 
and scientists with relevant educations. It is therefore 
equally important to national security that science and 
engineering educational institutions have routine access to 
national air space. AUVSI is in favor of FAA rulemaking that 
permits educational institutions the air space access that they 
need to effectively educate the next generation in autonomous 
system technologies.
    The wars in Iraq and Afghanistan have certainly driven 
demand for these systems, but many Americans are unaware that a 
ScanEagle UAS, which is represented by the second model in on 
the table, also aided in the successful recovery of Captain 
Phillips of the Maersk Alabama off the coast of Somalia last 
year. There are many other useful applications of UAS 
technology, some of which we saw on the screen earlier, air, 
ground and maritime systems that can protect our Nation. Border 
patrol, emergency response, wildfire monitoring, civil unrest, 
search and rescue, law enforcement, port security, submarine 
detection and underwater mine clearance, bulldozers for 
clearing land mines and IEDs, and ground robots used for 
explosive ordnance disposal are some examples of actual and 
potential robotic system missions for air, ground and maritime 
systems.
    Unmanned systems have been and will continue to be proven 
in war, and it is time to prove their heretofore under-
recognized capabilities for increasing the effectiveness of 
civil law enforcement and public safety.
    Technologies originally developed for warfare also will be 
transitioned to commercial operations. There is a growing 
demand from the civil sector for use of UAS for precision 
farming, tracking shoals of fish, aerial photography and more. 
This demand has the potential to drive a rapid advance of the 
technology. The United States has an opportunity to be at the 
forefront of the research and development of these advanced 
systems if it can address regulatory obstacles.
    Our industry growth is adversely affected by International 
Traffic in Arms regulations for export of certain UAS 
technologies, and by a lengthy license approval process by 
Political Military Defense Trade Controls. AUVSI is an advocate 
for simplified export control regulations and expedited license 
approvals for unmanned system technologies.
    Our hope is that today's hearing illuminates some of the 
ways that unmanned system technologies are changing and could 
change modern warfare, increase the safety of our men and women 
in the military, law enforcement and public safety, and 
strengthen national security at all levels.
    AUVSI's over 6,000 members from industry, government and 
academia are committed to fostering and promoting unmanned 
systems and related technologies.
    Thank you for the opportunity to testify. I am happy to 
answer any question from you or other members of the 
subcommittee.
    [The prepared statement of Mr. Fagan follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Tierney. Thank you, Mr. Fagan.
    I thank all of you. I am glad we decided this wasn't going 
to be our one and only hearing because there is certainly a lot 
of food for thought here. It runs the whole range on that.
    And I want to thank Dr. Singer before we start. He spent 
some time with us actually a while back, helping us think 
through some of the questions that we wanted to present and 
have the witnesses discuss with us.
    Let me start with Professor Anderson if I could. What is 
your legal rationale that you say leads you to the conclusion 
that the use of the UAVs is legal in context of sending them 
over a country like Sudan or Yemen or Pakistan, as opposed to a 
combat area like Afghanistan?
    Mr. Anderson. Well, I think that the legal rationale for 
their use in regular combat where it is clear that it is part 
of traditional hostilities is exactly that as any other weapon. 
And so the question really becomes what happens when you move 
outside of that zone.
    And I believe that the answer that has been given by the 
Obama administration, the Clinton administration, the Bush 
administration, going really back through the 1990's, has been 
that if you were in some kind of conflict with the terrorists 
that are transnational, you can chase them anywhere, and 
anywhere the combatant is located, you can attack them.
    I am sympathetic to that, but don't think it is actually 
literally right under the laws of war. That is, there are 
treaty thresholds that are actually established for when you 
have an armed conflict. And my own view is that is not 
unlimited in geographic scope.
    That said, the basis for the use of force is not limited 
strictly to armed conflicts in the narrow legal sense. We have 
always traditionally used force in ways that we describe as 
self defense on a broader basis. And self defense is, I 
believe, what we meant in the 1980's when Abe Sofer, the then-
legal adviser to State, delivered an address stating that the 
policy of the United States was not to allow safe havens; that 
if a country was unwilling or unable to keep transnational 
terrorists out of its territories, we would feel free to attack 
them if we thought that was the prudent thing to do, attack the 
terrorists.
    That is an exercise of self defense, rather than war in the 
full scale overt sense, and I think that it is an important 
capability that we have always had because I think that under 
many circumstances, it turns out that a smaller and sometimes 
covert action is a way of not escalating into a full overt war 
that could be very, very costly in every respect.
    So I think the answer to that is that it is a broader 
doctrine of self defense.
    Mr. Tierney. Thank you.
    If we accept that, Dr. Singer, for argument's sake on that 
basis, then you get to the issue that you raise in your 
testimony: who is responsible for making decisions about 
whether or not we go there? And second, should we go there, who 
is responsible for making the decisions actually controlling 
the UAVs or other robotic instruments that are there? And if we 
are contracting them out, how appropriate or inappropriate is 
it? And at what stage is it a governmental function that ought 
not to be contracted out? And how does all that play in? Could 
you talk to us a little bit about that?
    Dr. Singer. I think there are three important issues that 
are raised by that. The first is this technology is one that 
has certainly military applications, but it has also allowed a 
wider range of actors to utilize it. And there is a question of 
appropriateness there.
    So for example, my concern with the CIA strikes may be a 
little bit shared with Professor Anderson, but a little bit 
different in that, first, you have, for example, CIA lawyers 
deciding issues of air strikes. The scale of this effort is an 
air war. It is on the scale of the Kosovo air war, the opening 
rounds of it, but it is not military lawyers who have spent 
their years training on those situations. It doesn't mean they 
are making bad decisions, but that it is not the background a 
JAG office would have, and that is on the authorization side.
    Same in terms of the planning side. You have political 
appointees and people with an intelligence specialty deciding 
aspects of an air war campaign. So that is a question of 
appropriateness. And there is a quote in my book that connects 
to the seductive effect of it, and they describe how what we 
have playing out is like taking LBJ down to the foxhole. That 
is, civilians can make tactical level decisions now, utilizing 
this technology. It doesn't mean that they should.
    The second aspect of this is that Congress has not weighed 
in whether to support it or to go against it. And I think that 
is a question of legislative-executive branch issues that we 
need to look at. And again, it is not a partisan issue. It is 
played out before this administration and now during it.
    And the third is to the issue of effectiveness. There is a 
concern that while we may be taking out terrorist leaders, we 
may be sucking ourselves into a game of whack-a-mole, where we 
have been very successful at killing terrorist leaders, but are 
we also inadvertently aiding their recruiting? And I think the 
connection to the contractor issue here goes back to that 
question of appropriateness, the ``should'' of who should be 
involved.
    And it is not just an issue of legality. I think it is a 
long-term question of the future of the force. I remember 
meeting with an Air Force officer who pointed out an NCO who 
worked on maintenance. And they said, they have served 12 
years. How do we get to having a future NCO that has worked 12 
years on these systems that brings that experience to bear? Or 
we have to turn that over to them right now and wait 12 years. 
And that is not going to happen if we continue to outsource it.
    So if this is the future, we are setting ourselves up for a 
hollow capability.
    Mr. Tierney. That would match some of our other 
capabilities that we have referenced that would outsource that 
work, and that would be problematical, I think.
    Mr. Flake.
    Mr. Flake. Thank you.
    Dr. Barrett, you mentioned, I think, that the evidence 
shows enhanced awareness and restraint. Is that view shared 
among the community? I would like to see from others. Dr. 
Singer, do you share that view that unmanned pilots have 
enhanced awareness and restraint?
    Dr. Barrett. Well, it is contested, I will just put it that 
way. But there is this debate going on, and there is empirical 
data coming in from various sources. I can get you those 
sources, that says exactly this, that especially because of 
these sensor improvements and all the other variables I 
mentioned, that there actually is more awareness and restraint.
    So I think in Dr. Singer's book, you were a little bit more 
pessimistic about this issue. It is a debate. I will just leave 
it at that.
    Mr. Flake. OK. I am glad to hear that. I was just wondering 
if that view was shared.
    Dr. Singer.
    Dr. Singer. I think we need to divide it into two parts. We 
do know about the military use of these systems, and I think 
they have shown exceptional respect for the laws of war. When 
you discuss this with people who are engaged in these 
operations, there are a series of checks and balances and 
consultation with military lawyers that they have to go through 
for authorizing and conducting a strike.
    The challenge is the use on the intelligence side. Again, 
we don't even acknowledge that we have carried out these 
strikes, so I can't answer about the mechanisms that they 
follow for that.
    I will say one of the other issues is the wide array of 
perceptions about, for example, the civilian casualty concern. 
You have estimates that range from 2,000 civilian casualties on 
the high end, to I believe the smallest I have seen reported is 
20. When you backtrack the sources, it is interesting the high 
end ones often track back to regional media. One, for example, 
was a Pakistani newspaper that was quoting someone from the 
ISI. The low end are quoting our own intelligence officials. My 
guess is the truth lies somewhere in between.
    But there is a broader concern here in terms of a war of 
ideas. It is not just the reality that matters. These 
perceptions have a power unto themselves. And so a challenge 
for us is, how do we deal with that perception and show the 
painstaking way that we are going through, and deal with the 
fact that it is coming out being viewed on the other side 
through a lens of anger?
    Mr. Flake. Thank you.
    Professor Anderson, how is this being played out, this rise 
in these numbers are stark. We have 12,000 in inventory right 
now. I think Dr. Singer had mentioned that. How is this being 
viewed in terms of the drones, pilotless planes being flown 
between the agencies and the military? I would like the same 
question answered by Dr. Jackson.
    Mr. Anderson. I think that the question at this point is 
partly the question of the perception in the region, as Dr. 
Singer has suggested. It is also a question of how it is seen 
in what we amorphously call the international community, 
international actors such as academics and U.N. officials and 
tribunals and all sorts of folks out there.
    And I think that there is a sense sometimes within the U.S. 
Government across many administrations that none of this stuff 
really matters because it is just these soft law folks like me, 
who can't really impact policy. But I think that if you look at 
the track of many different issues, starting with the land 
mines campaign, for which I was primarily responsible in the 
early 1990's, on through various parts of the War on Terror 
debates, perceptions in the international community powerfully 
shape U.S. Government responses in ways the U.S. Government 
finds very hard to get in front of.
    And I think that here, the divide comes probably initially 
between the military use of these things on overt battlefields 
where they look pretty much like any other standoff weapon with 
particular technological characteristics attached, and then the 
questions that are raised by the CIA use, where it is not 
acknowledged. There is less data.
    And those will actually be sort of the fault lines that we 
will initially see in terms of the perception.
    Mr. Flake. Let me just followup on that. I am sorry, Dr. 
Jackson, I will get back to you later.
    But in your Weekly Standard piece, you talk about 
unqualified success that we have had in terms of the 
President's and the Vice President's policy here. Is that view 
shared by each branch of government? Does the intel community 
see it differently than the military, for example?
    Mr. Anderson. I am not an insider to government, but I 
guess I would say that my perception from the outside is that 
there is concern within the Department of State. There is 
concern within some of the departments of government among the 
lawyers that they have not settled on what their rationales 
are. And I believe that at some point, that ill serves an 
administration that is embracing this.
    Now, maybe the answer is this is all really terrible and 
illegal, and anybody that does it should go off to The Hague. 
But if that is the case, then we should not be having the 
President say this is the greatest since whatever. That seems 
like a bad idea.
    Mr. Flake. Thank you.
    Mr. Tierney. Thank you.
    Mr. Foster, you are recognized for 5 minutes.
    Mr. Foster. Thank you, Mr. Chairman, for having this 
hearing on a very important subject.
    First to whoever wants and feels competent to field it, 
what is the approximate ratio of how much we spend on manned 
versus unmanned aircraft across our country, roughly? Does 
anyone want to respond? All right.
    Mr. Tierney. Our next panel will be able to do that, I am 
sure.
    Mr. Foster. OK. And are there understood and generally 
agreed upon advantages of having a man aboard a combat aircraft 
at this point for either the ground support or air superiority 
purposes? I mean, is there any consensus on any list of 
advantages?
    Dr. Barrett. Well, a couple that come to mind. First, there 
are no bandwidth limitations or vulnerabilities. So with the 
unmanned remote controlled systems, you are working with a 
satellite and there is potential limitations on the amount of 
bandwidth available and then also the vulnerability issue.
    So, a mix of, say, air systems that are manned and 
unmanned, for that reason would be called for.
    Also, there is some data that says that doing combat aerial 
support CAS missions. If you are getting on station, the manned 
platform can get oriented more quickly. So for those types of 
missions, you might want a manned platform in the area if you 
need a very quick response and orientation.
    Mr. Foster. And then for just general air superiority, is 
there any reason why drones won't essentially take over the 
business?
    Dr. Barrett. I would say that would just be a technical 
question. I don't think we are there yet, but it could happen 
at some point.
    Mr. Foster. OK. We are about to spend apparently a lot of 
money on a tanker system. Is that relevant for a future where 
drones are really the dominant force in air superiority?
    Mr. Jackson. I think among the designs for the Navy UCAS, 
which is the delta wing airplane there, is a tanker version of 
it. If you are talking about carrier operations in particular, 
you have to provide for the refueling capability. There is no 
reason why that refueler could not also be an unmanned vehicle. 
So in the design work that is being done now, we are looking at 
that aircraft for combat and strike missions, but also as an 
air tanker version to refuel those unmanned systems.
    Mr. Foster. OK. So the conclusion is, it is not clear that 
the tanker we are talking about building really will fit in 
very nicely into a predominantly drone system. Is that a 
reasonable conclusion or not?
    Dr. Singer. The designs of it, it is really not so much the 
tanker as opposed to the systems on the other side, the users 
of it. You want to make sure that they are interoperable with 
it. I think the overall strategic question that you are getting 
to is that we want to ensure that we are not making decisions 
right now that will paint us into a corner in the future.
    So for example, the acquisitions part that you asked at the 
start, it is not so much the amount of money that we are 
spending on unmanned systems right now, but that we are 
purchasing more of them physically than we are manned 
platforms.
    And so one of the mistakes that first movers have made in 
history, why they have fallen behind, is that they commit too 
early to one type, one model, and then 20 years out, when we 
learn what is the best one, we are in a bad way. The British 
with the aircraft carrier would be an example here.
    So the issue I think for us is to ensure that we are 
continuing to experiment a great deal, and then also making 
sure that we are not locking ourselves into a one designer 
future, which to me means we need to focus on our acquisitions 
system and make sure that we don't have oligopolies emerge, or 
monopolies.
    Mr. Foster. Is there just a working number for the cost 
ratio between a manned and an unmanned aircraft with comparable 
capabilities? Is it order of a factor of 10 or a factor of 100?
    Dr. Barrett. Close to 10, I think.
    Mr. Foster. What I am worried about is we are going to at 
some point be asked to defend Taiwan with a set of aircraft 
carriers, and we are going to, and then all of a sudden 
Chinese-manufactured mass-produced drones will be coming at us 
and it will be game over.
    Do those sort of things routinely get gamed out, sort of 
equal dollar value drone versus manned aircraft fleets? So that 
tradeoff is routinely looked at at this point?
    Dr. Singer. There are starting to be, at least within the 
media reports of war gaming to that effect. The real issue is 
one of quantity versus quality moving forward, and I think this 
is an issue for our overall acquisitions system. That is, do we 
want the capability for a large number? Or will the high cost 
of systems lock us into only being able to buy a very few gold-
plated versions?
    And a concern I have when I look at the models moving 
forward is that we are starting to make decisions right now 
that will lead to some of the similar things we have seen play 
out with the Joint Strike Fighter or DD(X) or FCS, where we 
don't exactly know the future, but we know that the system that 
is too big to fail and is so costly that we can only buy a 
couple of them, paints ourselves into a corner in a scenario 
with, for example, a China or the like, where the amount that 
we can buy should not decide the tactics and the strategy that 
we take in war. But that is the future that we are headed with, 
including in unmanned systems.
    Mr. Foster. Thank you.
    Dr. Barrett. Could I add one comment? Another reason why 
you would want manned is because it keeps the homeland less 
involved. If you are fighting a war with only unmanned systems, 
there is no one for the enemy to shoot at. There is no option 
for even guerilla war. Therefore, you are inviting, I think, 
terrorism in the homeland.
    So I think for that third reason, you would want a mix. You 
don't want to go to just unmanned. Otherwise, they are coming 
here.
    Mr. Jackson. And Mr. Foster, I might add that the Naval War 
College has done a lot of work in terms of the potential future 
for integrating unmanned systems into the maritime environment. 
The Chief Naval Operations task in 2008, its Strategic Studies 
Group, took a look at how you would use these systems. So there 
was a year spent in study of how you would integrate these 
systems, where you would used manned, where you would use 
unmanned systems, and some very fine work was done and brought 
out some notions that there has to be a balance between the 
two, but the unmanned provides you some unique capabilities in 
terms of endurance, in terms of ability to deploy from the 
continental United States, and use these systems and what not. 
So there has been a fair amount of work done in that. Not a lot 
of games per se, but a lot of discussion and thinking about how 
they would be employed.
    Mr. Tierney. Mr. Fagan----
    Ma'am, please, please be quiet and please sit down. I told 
you before at the beginning of this hearing, we are having----
    [Interruption from audience.]
    Mr. Tierney. You are going to have an opportunity to sit 
down now or be asked to leave. It is your choice, ma'am. Would 
you care to sit down and listen like the rest of us trying to 
learn something here? Or would you like to be asked to leave? 
Asked to leave. Thank you.
    We are going give our guest--officer, we will give our 
guest one more chance, but if she speaks out again, we will 
have to ask for her to be removed.
    Mr. Fagan, what I was going to ask you, obviously there are 
so many other uses that are non-military of this kind of 
technology. I can think of some in my own district, which is 
heavily reliant on the fishing industry, and some of the 
underwater technology that could really identify for purposes 
of determining catch shares or what fish are over-fished, which 
ones aren't, to other land uses, things of that nature.
    And when you start talking about that, the real question 
becomes: How do we keep the innovation going, internationally, 
not just in our country? At the same time, obviously the ideal 
is to deprive other countries that might wish us harm from 
getting the technology that could do so. Can you possibly do 
that?
    Mr. Fagan. Mr. Chairman, I believe it is possible that the 
commercial market is going to drive requirements for 
technology. If there is a commercial demand for fishing and 
surveillance related to fishing, I think that sensor systems 
and technologies will be developed to support that.
    Currently, there need to be some regulations that would 
support the operation of aircraft in support of that industry, 
and I am pretty confident that technology, I am not well versed 
in exactly how shoals of fish are spotted, but let's assume 
that it is done optically with optical sensors. There exist 
quite high quality optical sensors that I would imagine could 
be adopted for that, but we will need, as I said, two things, a 
requirement and permission to actually fly the systems in 
support of those.
    So the technology is cross-cutting. As the market 
increases, the demand for these higher quality sensors will 
increase and costs will go down and the technology will 
improve. I hope that answered your question.
    Mr. Tierney. Well, it does a little bit. I may not have 
asked it as clearly as I could have, but there comes a point in 
time when some people are going to say, look, we can't allow 
some of this technology to be exported. We can't allow even 
some of this equipment to be exported because we are afraid 
others will put it to a devious use.
    Is it even possible to draw that kind of a line? Or it is 
going to happen anyway?
    Mr. Fagan. That is a difficult line, and I am not an expert 
on export control regulations. I know that our manufacturers 
have voiced their concern that sometimes they are too 
complicated and difficult to comply with. But yes, I think it 
is possible that if export controls aren't administered 
properly, it could end up providing bad people with highly 
technical systems that could be used against the United States.
    So we are not, AUVSI and me personally, I am not opposed to 
export regulations. It is just that we would like to see them 
easy to use and administered in an expedited way.
    Mr. Tierney. Let me just ask, to survey the rest of the 
panel, just quickly. Does anybody think that there is a 
possibility of controlling the export of this technology in 
such a way that it would not be something that we would have to 
be concerned about other countries using against our interest? 
Or is that just something that can't be done?
    Dr. Singer.
    Dr. Singer. No, it would be like trying to control 
computers or trying to control automobiles. We already see 43 
other countries building, buying and using these systems and a 
range of non-state actors for both positive and nefarious 
purposes.
    I think the bigger question is: How do we maintain our 
competitiveness in this? How do we ensure that businesses can 
continue to thrive so that we can innovate? And I think a long-
term issue here is ensuring that they have a pipeline of young 
scientists, young engineers who can succeed. And that speaks to 
the challenges of having a national robotics strategy that 
connects to broader science and technology, engineering and 
mathematics issues.
    Mr. Tierney. Thank you.
    Professor Jackson, do you agree?
    Mr. Jackson. Just as a point of interest, sir, the 
ScanEagle, which was used to support the rescue of Captain 
Phillips in the Maersk Alabama situation was originally 
developed for the tuna industry. And it was launched from tuna 
ships to go out to find where the fish were located and then 
they would recover it from the air. And so that was civilian 
technology that has been adapted. We now have over 200,000 
hours of time used in military applications for surveillance 
purposes. So it is certainly a two way street.
    Mr. Tierney. I see the others nodding, so I won't bother to 
question on that, in agreement. But so what the prospects does 
anybody want to offer here for an international treaty that 
addresses the use of these, to restrict the military or other 
uses of that in any particular circumstances? Is anybody aware 
of any negotiations or discussions that have been started 
anywhere about this topic?
    Professor Anderson.
    Mr. Anderson. Probably the closest to this would be the 
development by different bodies such as the International 
Committee of the Red Cross or several of the scholarly bodies 
that put up model codes for the laws of war. There has been 
recently released a model air war manual that would address 
part of these things, and it specifically has measures talking 
about unmanned vehicles, both in a surveillance capacity as 
well as a weapons-firing capacity.
    The United States has participated through the Department 
of Defense in numbers of those discussions. And I would say 
that in the case of the air war manual, I would describe 
without attributing it, without speaking for the Department of 
Defense, I would describe it that the U.S. DOD has participated 
very actively in the formulation of the specific black letter 
rules that have been developed, but I think was actually quite 
stunned by the commentary manual that was developed by several 
of the experts that would go along with that and would attempt 
to provide sort of authoritative guidance. The United States, I 
do not think, will wind up regarding that as authoritative.
    Second is also a technical issue in some sense. It is the 
International Committee of the Red Cross development of what it 
calls interpretive guidance on direct participation in 
hostilities, which goes to the question of civilians who may be 
taking part in ways that Dr. Singer referenced, or CIA 
personnel or terrorists themselves that may not be regarded, 
strictly speaking, as combatants, but nonetheless lawful 
targets.
    Again, the United States had a number of experts who 
participated in that process and the ICRC has put that out as 
guidance. However, that has been extremely controversial in 
parts of its formulations, essentially in saying you can have 
part-time participants in hostilities who may not be targeted 
between activities that they are carrying out. And the United 
States I do not think will come close to signing onto those.
    Mr. Tierney. Thank you.
    Mr. Flake.
    Mr. Flake. Dr. Singer, you mentioned that there are some 
criminal uses, and it has been mentioned for nefarious 
purposes, as you put it. Can you give some examples of non-
state actors or others that are using it in this way?
    Dr. Singer. The examples range from one that was mentioned 
of Hezbollah during its war with Israel operating these 
systems, to some of the border militia groups utilizing them 
too. There were a group of thieves in Taiwan a couple of weeks 
ago who used robotic helicopters to scout out targets and 
ensure that they were ready to steal from.
    What we are seeing here, again, this technology is what you 
could describe as the parallel to open source software. It is 
not like an aircraft carrier. It is not like an atomic bomb 
where you need a huge industrial structure not only to build 
it, but to utilize it. And so that means that we have a 
flattening effect playing out in terms of who can utilize this 
technology.
    And the positive side is, again, the range of uses that can 
be made, everything from fishery to environmental monitoring. 
We used the Global Hawks for response to the humanitarian 
disaster in Haiti.
    But the opposite is that it lowers the bar for nefarious 
actors. The best illustration I can give of that, of the 
potential, is during World War II, Hitler's Luftwaffe, Hitler's 
air force could not strike the United States. It didn't have 
that reach. A couple years ago, a 77 year old blind man 
designed his own unmanned system that flew across the Atlantic. 
And so what we have to in a sense do is, in my mind, the 9/11 
Commission described as part of the cause of the tragedy on 
that day was a failure of our own imagination. We need to apply 
this to this emerging technology here as well, use imagination 
in how we can utilize it for positive ends, but also being 
aware that the threat scenarios are widening as well.
    Mr. Flake. Thank you.
    Mr. Anderson, a U.N. official raised the prospect that 
drone attacks are a form of extrajudicial execution, I think is 
the way it was put. Have any organs of the United Nations, and 
you spoke of it a little in your last colloquy, but are we 
likely to see these challenges from international organizations 
or states themselves? Where do you think the challenges are 
likely to come from, whether it is the Red Cross just looking 
for guidelines or is it likely the U.N. through its agencies 
that are going to demand some kind of guidelines here?
    Mr. Anderson. Well, I think that this is gradually a 
developing campaign in which there are various international 
actors who are very unhappy with the development of this, both 
the technology and, at this moment, by its use in particular by 
civilian agencies. And I think that their difficulties with the 
technology range all the way back to military use on the active 
battlefield.
    But the easy place to sort of move in a campaign to peel 
that off is with the CIA. And in that regard, then the charge 
has been leveled that this is a violation of international 
human rights standards. It constitutes extra-judicial execution 
without having any charges, without having attempted to arrest 
the person.
    We respond by saying the person is a terrorist combatant 
and can be targeted at any point. We are not obligated to try 
and detain them or to capture them. But there are many, many 
authorities out there who disagree vehemently with that. And 
one of the questions that will arise is, the United States has 
never, across many, many decades, agreed to sign onto the 
extraterritorial application of the treaties that would make it 
possible to characterize these acts as being extra-judicial 
execution. It has never agreed to that.
    And one of the questions will be whether the 
administration, without really sort of thinking about its 
impacts on these kinds of areas that are close to its heart, 
winds up weakening those restraints or winds up weakening the 
U.S. opposition to that, without really taking into account the 
effect that it would have on precisely these kinds of things.
    The long-term effect of that, given that there are not 
necessarily statutes of limitations on these kinds of acts, 
could be the problem of CIA officers, or for that matter 
military officers or their lawyers being called up in front of 
international tribunals or courts of Spain or someplace and 
said, you've engaged in extrajudicial execution or simple 
murder and we are going to investigate and indict.
    Mr. Flake. Thank you.
    Mr. Tierney. Mr. Foster.
    Mr. Foster. Yes. Dr. Singer, you have mentioned a couple 
times a national robotics strategy wherein education is crucial 
to keeping our lead in this area, if such a lead exists. And 
there are a number of things like the U.S.'s FIRST Robotics 
Competition. There is the Fab Lab where they have rapid 
prototype equipment that are distributed.
    Do you have any favorites here or ideas of what the best 
strategy is going to be going forward, besides just dumping a 
bunch of money into it?
    Dr. Singer. I am not going to pick favorites in terms of 
competitions, but it is interesting that a number of the other 
states that are succeeding and thriving in this realm, like for 
example South Korea, do have these sorts of strategies and it 
would be interesting for us to learn from them.
    I think you mentioned some of the aspects of what a 
strategy might look like. Some of the elements of it include, 
for example, not just the sort of isolated islands of 
excellence in terms of robotics labs or robotics competitions. 
How could we expand upon those so that you are engaging youth 
in a greater way, but also that you are allowing the best 
design to win?
    Can we support greater graduate scholarships in this realm? 
Is there the possibility of creating public-private 
partnerships along the lines of special geographic zones the 
way that we have seen with Research Triangle in North Carolina 
or Silicon Valley. Is there the potential for something like 
that in robotics?
    But again, part of this should also be having it go hand in 
hand with discussions about the impact of what they are doing 
in the lab on the world beyond, the kind of ethics discussions 
that the professors here are leading. And I think that element 
has been missing, as well, to a prior question that was asked 
of debates about regulation.
    We have to start within the robotics field of robotocists, 
what kind of research should they engage in and what should 
they not; should there be arms control, sort of the early nodes 
of the land mines treaty when it comes to the issue of autonomy 
moving forward. But for example, if you were a young 
robotocist, you don't have a code of ethics right now to turn 
to the way if you were a young medical scientist.
    And I think that part of this strategy has to be not only 
what do we do to maintain national competitiveness, but also 
how do we wrestle with the issue beyond.
    Mr. Foster. OK.
    Professor Anderson, or anyone who wants to field it, is 
there a moral, legal or political distinction between a 
decapitation strike and just a strike against the normal 
military hierarchy that you see, and when you are deliberately 
going after the political leadership of an organization 
compared to just the chain of command?
    Mr. Anderson. If one is talking about a non-state actor 
group which has been characterized with legal reasons as being 
a terrorist group, then there is not really going to be a 
distinction--I mean, they are targets in that sense. There are 
other kinds of legal issues that arise if one goes after a 
purely decapitation strategy with regards to a regime. Again, 
it is lawful, in my view, but the legal rationales are 
different because it is a state versus a non-state.
    And so the legal questions that arise here about going 
after leadership targets in terrorist organizations, in part 
there the kinds of strategic and prudential arguments that Dr. 
Singer has raised about sort of whack-a-mole questions and 
those things. But I don't think that there is legal questions 
about the question of the lawfulness of targeting the people 
that are involved.
    Mr. Foster. Another thing that I am sure occurs to everyone 
is whether we are in danger of gradually lowering the threshold 
for a declared war. During the cold war, there were all these 
games of chicken played over the Arctic continuously. And if we 
had drones, we just perhaps would have escalated that into 
actually destroying hardware. And when the hardware becomes 
nuclear-capable hardware, you are talking about a really scary 
line that is in danger of being crossed.
    And I was just wondering what the thinking is in terms of, 
is it possible to implement a hard line that says, this is an 
act of war and this is not an act of war, when there are 
unmanned vehicles only in the battle.
    Dr. Singer. The way I visualize this is that the barriers 
to war are dropping both socially, and politically, but also 
now technologically. But at the same time, our definition of 
war is changing. And we can see this in terms set-aside from 
robotics. This body hasn't declared war since 1941. We don't 
have a draft or conscription anymore. We don't pay war bonds or 
higher taxes for war.
    And now we have a technology that allows us to carry out 
what we would have previously termed act of war, without having 
to have a political debate about it. I mean, literally it is 
not a theoretic issue. We have carried out at least 119 air 
strikes, and this body hasn't had a debate about it, either to 
support or to go against.
    And so the way I see it, again, was that the barriers to 
war were already lowering. The technology perhaps allows these 
barriers to hit the ground. And what was interesting is that 
when I went around interviewing people, that was the concern 
that was shared. For example, I remember an interview with 
someone at Human Rights Watch who raised that, but also an 
interview with a special operations officer within the U.S. 
military as one of their big concerns here.
    Mr. Anderson. If I could just add to that. If the 
administration's lawyers were here in front of you today, they 
would say that this is all covered by the AUMF in so far as we 
are targeting people who are in some way connected either with 
Al Qaeda or with the authors of 9/11 and that is true whether 
or not one is talking about the strikes in Pakistan or even the 
strikes in Yemen or any other place.
    I believe that where this question that you raise becomes 
most important is that not all the enemies that the United 
States will face in the decades into the future are going to 
turn out to be Al Qaeda, nor will they be connected to 9/11. 
And the question that this body, the Congress, has to address 
is, as the thresholds that Dr. Singer described get lowered, 
then the question of the controls on the use of force will 
depend on, first of all, whether you assign those functions 
directly to the military and to no other force, or allow the 
CIA and covert operations to partake of that, which I believe 
is hugely important for avoiding overt wars.
    There is a reason why the CIA has been tasked in Pakistan 
to do what it does, rather than having the undeniable presence 
of the U.S. military there. I think that is the right decision. 
But as this moves into the future, the lines drawn with respect 
to the CIA have to be drawn and I believe that, as the 
threshold for what constitutes the use of force is lowered, the 
responsibility of this body will not lie in issuing things like 
more AUMFs unless there is another 9/11 or something similar, 
but will lie in the way in which this body exercises its 
oversight functions and strengthens its oversight functions to 
require much greater reporting, much more detailed reporting.
    But at the same time, the concomitant part of that is this 
body is going to have to learn to be a whole lot more effective 
at keeping the secrets that are involved.
    Mr. Tierney. Thank you. I just want to let you know that 
you have our gratitude for that and we may at some time want to 
call you back either for a formal hearing or just for a 
discussion to educate us more on the issue. We are going to go 
for about a half hour and then we will come back, probably less 
than a half hour, for 20 minutes or so, and come back with our 
second panel.
    I again thank all of you on this panel.
    We will take a recess now.
    [Recess.]
    Mr. Tierney. We appreciate your staying with us and 
testifying. If we were more thoughtful on this, we probably 
would have scheduled this for another day instead of running 
you here this late. But I get the feeling that you may be back 
again at some point convenient to everybody. This looks like an 
area we will want to explore in some more depth at some point.
    Let me just introduce the panel first for the record, if I 
could. Mr. Michael J. Sullivan serves as the Director of 
Acquisition and Sourcing Management at the U.S. Government 
Accountability Office. His team is responsible for examining 
the effectiveness of agency acquisition and procurement 
practices, and meeting the mission performance objectives and 
requirements. He also manages a body of work designed to help 
the Department of Defense apply best commercial practices to 
better develop advanced weapons systems. Mr. Sullivan holds 
both a B.A. and an MPA from Indiana University.
    Mr. Dyke Weatherington is the Deputy Director for Unmanned 
Warfare and Portfolio Systems Acquisition in the Office of the 
Under Secretary of Defense for Acquisition, Technology, 
Logistics in the Office of the Assistant Secretary of Defense 
for Acquisitions. You must have quite the business card.
    A retired Lieutenant Colonel in the U.S. Air Force, he is 
responsible for acquisition oversight for unmanned aircraft 
systems and associated subsystems. He is also the functional 
lead for the Deputy Secretary of Defense-directed UAS Task 
Force.
    He holds a B.S. from the U.S. Air Force Academy and an M.A. 
from California State University.
    And the Honorable Kevin Wolf serves as the Assistant 
Secretary for Export Administration at the U.S. Department of 
Commerce. Prior to his, he was a partner at Bryan Cave, LLP, 
where he worked on export administration regulations, 
international traffic in arms regulations and sanctions 
administered by the Office of Foreign Assets Control.
    He holds a B.A. from the University of Missouri and an M.A. 
and J.D. from the University of Minnesota.
    Thank you again, all of you, for being here and sharing 
your substantial expertise with us. It is our policy to swear 
in the witnesses, so if you would please rise and raise your 
hands.
    [Witnesses sworn.]
    Mr. Tierney. Thank you.
    The record will please reflect that all of the witnesses 
have answered in the affirmative.
    I remind you of what I think you already know, that all of 
your written testimony will be placed on the record in its 
entirety. We would just ask you if you could summarize that in 
about 5 minutes each, and we will do some question and answer 
after that. And thank you.
    We will start with you, Mr. Sullivan.

 STATEMENTS OF MICHAEL J. SULLIVAN, DIRECTOR, ACQUISITION AND 
  SOURCING MANAGEMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE; 
 DYKE WEATHERINGTON, DEPUTY, UNMANNED AERIAL VEHICLE PLANNING 
   TASKFORCE, OFFICE OF THE UNDER SECRETARY FOR ACQUISITION, 
TECHNOLOGY AND LOGISTICS, U.S. DEPARTMENT OF DEFENSE; AND KEVIN 
WOLF, ASSISTANT SECRETARY FOR EXPORT ADMINISTRATION, BUREAU OF 
       INDUSTRY AND SECURITY, U.S. DEPARTMENT OF COMMERCE

                STATEMENT OF MICHAEL J. SULLIVAN

    Mr. Sullivan. Thank you, Mr. Chairman and Congressman 
Flake. Thanks for this opportunity to discuss GAO's report on 
the Department's unmanned aircraft systems acquisition efforts 
from July of last year.
    My statement today focuses on acquisition outcomes, the 
extent of collaboration among the services on those 
acquisitions, and recent investment decisions related to 
unmanned aircraft acquisitions.
    As has been stated earlier in the hearing, from 2002 to 
2008, the number of unmanned aircraft in DOD's inventory has 
grown from about 167 to more than 7,000 as a result of growing 
demand from the field. Once fielded, these aircraft have proven 
to be quite valuable to our warfighters.
    However, there have been growing pains along the way. We 
assessed the 10 largest unmanned aircraft programs, eight air 
systems and two payload systems, for the report that we did 
last July, and found that their development costs had grown by 
$3 billion or 37 percent on average. Procurement funding has 
increased for most of those programs, but this was mostly due 
to increases in the number of aircraft being procured, which is 
a good thing. Nonetheless, procurement unit costs have grown by 
12 percent on average.
    Our assessment found varying degrees of collaboration among 
the services. For example, the Marine Corps was able to avoid 
the cost of initial system development and a lot of duplication 
of capabilities and was also able to deliver needed capability 
to its Marines very quickly by simply choosing to procure 
existing Shadow aircraft from the existing Army program.
    In another case, the Navy is expecting to save time and 
money on its broad area maritime surveillance system by using 
the existing Air Force Global Hawk air frame. However, it is 
developing a lot of its own unique subsystems, rather than 
joining the Air Force in some of those procurements.
    In contrast to those examples, the Army and the Air Force 
did not effectively collaborate on their Predator and Sky 
Warrior Programs despite strong direction from the Department 
to do so. We don't really have any estimates of the costs that 
might have occurred because of the duplicative efforts there, 
but we do know that the Army had to stand up a program office 
and had a development effort of over a half billion dollars. So 
that probably is some costs that they didn't need.
    Much greater commonality could have been achieved as each 
of those weapons systems are being developed by the same 
contractor. One is a variant of the other.
    Service-centric requirements and an unwillingness to 
collaborate were key factors in limiting commonality across 
these programs. Despite the Department's efforts to emphasize 
jointness and encourage commonality, the services continued to 
establish unique requirements, some of which have raised 
concerns about unnecessary duplication, such as the Sky Warrior 
and the Predator.
    Since our report was issued, the Department has made an 
investment decision to increase development of unmanned 
aircraft and procure larger numbers, which we think is a good 
thing. It also recognizes that this important investment must 
be leveraged effectively.
    One of the major goals of the UAS road map is to foster the 
development and practice of policies, standards and procedures 
for operating unmanned aircraft and to promote the enforcement 
of government, international and commercial standards for the 
design, manufacture, testing and operation of unmanned systems. 
The road map has recognized the potential for unprecedented 
levels of collaboration to gain capabilities at reduced 
acquisition costs. And we have reported in the past that one 
key to increased collaboration and commonality is the use of 
open systems across product lines, across air frames, 
subsystems and even down to the component level.
    Unmanned systems are critical to the Department's mission 
and will continue to grow in numbers and in effectiveness. In 
order to acquire them most efficiently in today's environment 
of constrained resources, the Department should follow through 
on its stated goals and continue to force joint standardized 
weapons systems wherever it makes sense.
    Mr. Chairman, that completes my statement.
    [The prepared statement of Mr. Sullivan follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Tierney. Thank you very much. We appreciate your 
statement.
    Mr. Weatherington.

                STATEMENT OF DYKE WEATHERINGTON

    Mr. Weatherington. Mr. Chairman, Congressman Flake, thank 
you for the opportunity to appear today before you to discuss 
the Department of Defense's unmanned aircraft systems 
acquisition programs, specifically Department initiatives to 
achieve greater commonality and efficiencies.
    My testimony will address the full spectrum of DOD UAS 
systems. This distinction is important because we have pursued 
opportunities for commonality and efficiency successfully 
across the full range of DOD unmanned aircraft systems, 
including small unmanned aircraft systems.
    Table one in the provided testimony is included to identify 
the broad diversity of unmanned aircraft systems supporting a 
broad range of warfighter needs, and you have examples of each 
of the groups of those systems on the table in front of you.
    The GAO report, Defense Acquisitions: Opportunities Exist 
to Achieve Greater Commonality and Efficiency Among Aircraft 
Systems, was released last July and reviewed the DOD UAS 
program groups three through five. GAO had five 
recommendations. The Department partially concurred with the 
recommendation to conduct rigorous, comprehensive analysis of 
requirements for current UAS and to develop a strategy for 
making systems and subsystems among these programs more common.
    At the time of the review, the UAS Task Force, with support 
from the Joint Requirements Oversight Council, had already 
completed a comprehensive analysis of the potential for 
commonality between the current Air Force Predator Program and 
the Army's Extended Range Multi-Purpose Program.
    Since the report was released, the UAS Task Force, in 
coordination with Joint Staff, has conducted a rigorous review 
of the Navy's BAMS Program and the Air Force Global Hawk 
Program to evaluate opportunities for achieving greater 
commonality and joint efficiencies. We have completed that 
analysis, along with one addressing signals intelligence or 
SIGINT payload commonality.
    The Department concurred with the remaining four GAO 
recommendations in that report. Since the GAO has released its 
report, the Department has completed its 2010 Quadrennial 
Defense Review and the President has submitted his fiscal year 
2011 budget. The QDR highlights the continuing warfighter need 
for increased intelligence, surveillance and reconnaissance, 
and force protection capabilities provided by unmanned aircraft 
systems and the budget reflects the Department's increased 
investment needs in these areas.
    This investment is consistent with the acquisition reform 
goal and DOD's high priority performance goals presented in the 
analytical perspective volumes of the President's fiscal year 
2011 budget.
    The Department's investment and operation in UAS continues 
to increase as demand for a wide range of UAS capabilities 
expands, as was discussed in the first panel. DOD's annual 
budget for development and procurement of UAS has increased 
from about $1.7 billion in fiscal year 2006 to over $4.2 
billion in fiscal year 2010. During that same period, DOD UAS 
operations have grown from about 165,000 hours to over 550,000 
hours annually, and there is a graphic in the testimony. 
Unmanned aircraft system inventory has increased from less than 
3,000 to over 6,500 aircraft, as has been mentioned previously.
    The Department is making significant investments in 
unmanned aircraft systems and that is projected to grow 
significantly over the next 5 years. Achieving commonality, 
interoperability and joint efficiencies in development, 
production, and operation and support is critical to 
controlling costs and delivering interoperable, reliable 
systems to the warfighter with capabilities they need to win.
    We will continue to improve the defense acquisition system 
and have formed the UAS Task Force jointly to address critical 
UAS technology and acquisition issues to enhance operation, 
enable interdependencies, commonalities and other efficiencies.
    Just a quick update on our current DOD UAS programs. This 
year, the Department made the commitment to grow Air Force 
Predator and Reaper combat air patrols [CAPs], to 50 by 2011, 
and the Air Force is on track to achieve this goal and will 
continue to expand the force structure to support up to 65 CAPs 
by fiscal year 2013.
    The Army is also expanding many classes of UAS, including 
accelerated production of the Predator Class ER/MP and also 
upgrading Shadow. In addition to the quick reaction capability 
of eight ER/MP aircraft already fielded in Iraq, the Army will 
field a second quick reaction capability to Afghanistan this 
year.
    The Army also plans to field 13 ER/MP systems of 12 
aircraft each to each of the combat aviation brigades starting 
in fiscal year 2011. Navy is in engineering and manufacturing 
development phase for its BAMS UAS Program and is introducing 
sea-based unmanned aircraft systems with its vertical takeoff, 
unmanned aerial vehicle, and its small tactical unmanned 
aircraft system. Navy plans to award the STUAS contract later 
this year.
    Finally, all the military departments and Special 
Operations Command are operating the hand-launched Raven with 
over 4,700 aircraft delivered to the warfighter.
    In closing, Mr. Chairman, the Department's investment in 
UAS is projected to continue to grow. We recognize achieving 
commonality, interoperability and joint efficiencies in 
development, production, operations and support is critical to 
controlling costs and delivering interoperable, reliable 
systems to the warfighters.
    Thank you for this opportunity to testify.
    [The prepared statement of Mr. Weatherington follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Tierney. Thank you for your testimony.
    Mr. Wolf, you are recognized for 5 minutes.

                    STATEMENT OF KEVIN WOLF

    Mr. Wolf. Thank you, Chairman Tierney, Congressman Flake, 
members of the committee, professional staff. Thank you for the 
opportunity to testify before your committee on the Department 
of Commerce's role in export controls of unmanned aerial 
vehicles, related components and technology.
    The Bureau of Industry and Security [BIS], within the 
Department of Commerce administers the controls on the export, 
re-export, and in-country transit of a range of dual use items, 
commodities, software, technology, that have both civilian and 
military uses.
    In doing so, BIS works closely with a number of departments 
and agencies, including the Departments of Defense, State, and 
Energy, the Central Intelligence Agency, Department of Homeland 
Security, and its Bureau of Immigration and Customs 
Enforcement, and the Department of Justice.
    The dual use export control system is an important tool to 
protect the national security of the United States against 
diverse threats that our Nation faces. State and non-state 
actors seek to acquire weapons of mass destruction and the 
means to deliver them, as well as conventional arms and other 
items that could be used for terrorist purposes. BIS implements 
the dual use control system through the export administration 
regulations.
    Under the EAR, BIS regulates the export of certain UAVs and 
related items based on multilateral control lists and other 
items that could be used in or for UAVs through unilateral 
controls on end uses and end users. What I mean by that is that 
the dual use regulations administered by the Bureau of Industry 
and Security are one part of a greater scheme.
    You have multilateral controls, principally the missile 
technology control regime, sometimes called the MTCR, and the 
Wassenaar Arrangement, which are arrangements between, 
depending upon the regime, 34 to 40-plus member countries which 
have agreed to establish lists of items and technologies that 
should be controlled for export and re-export outside of the 
member countries. And these lists that are agreed to and worked 
on and revised regularly by various committees in which the 
Commerce Department and other U.S. departments participate, are 
updated to take into account current threats and current 
issues.
    These lists that the MTCR creates and the other 
multilateral regimes' work are the basis for the list of items 
that the U.S. Government controls for export and re-export or 
in-country transit. The Commerce Department regulations, the 
dual use regulations, again even within the domestic regime, 
are only one part of that.
    The other part is what are called the International Traffic 
in Arms regulations which are the regulations administered and 
implemented by the State Department's Directorate of Defense 
Trade Controls. And principally, what those regulations govern 
in terms of the export and re-export are defense articles such 
as UAVs that are specifically designed or modified for military 
application or parts or components for those UAVs that are 
specifically designed or modified for military UAVs, rather, 
and all technical data and services that are directly related 
to the UAVs and to those parts and components. And for those 
items and for services related to those items, it is a 
worldwide licensing requirement except for Canada in some 
limited circumstances.
    A subset of that are the dual use controls. So anything 
that is military is not controlled by us. It is those UAVs and 
related parts, components, accessories and technology or 
software for their production or development that are 
controlled for worldwide export. That is, if you were in the 
United States and you had one of these items or an accessory 
that was specially designed for a dual use UAV, a license would 
be required from the U.S. Government before it is exported.
    Similarly, if it is an item that is of U.S. origin or 
otherwise subject to these regulations, a license would be 
required to re-export it from one destination to another 
destination.
    And then behind these rules is a vigorous set of 
enforcement authorities, both civil and criminal penalties that 
are available to the U.S. Government for those individuals and 
companies that violate these regulations, export something from 
the United States or re-export it if it is otherwise controlled 
without a license.
    There is a series, as our testimony, my written testimony 
has, of enforcement actions against companies, both civil and 
criminal, for people trying to export and re-export things 
directly or indirectly related to UAV manufacture, production 
or use outside the United States in violation of these rules.
    So with that general summary of U.S. export control law and 
UAVs, I would be happy to answer any specific questions you 
might have.
    [The prepared statement of Mr. Wolf follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Tierney. So Mr. Wolf, not the first time you have given 
that rap, right?
    Mr. Wolf. Excuse me?
    Mr. Tierney. Not the first time you have given that rap.
    Mr. Wolf. No, indeed. [Laughter.]
    Mr. Tierney. We understand that.
    But look, we just finished a panel. I think you were here 
for at least part of it, if not all of it, where the witnesses 
on that panel told us there is no way you can get this back in 
the box. We have Hezbollah out there with UAVs. We have Russia, 
China, other people on that.
    So how successful is our export regime?
    Mr. Wolf. Well, it is very successful. There is an active, 
robust enforcement action. And with respect to the comment that 
he was making, one thing that I failed to mention but should 
have, is even with respect to parts and components that aren't 
specifically listed in either set of regulations or that are 
not specially designed for use in a UAV, both the MTCR 
countries and certainly the United States have controls on 
exports of just about anything to certain end users.
    So for example, if a coffee cup or something that is going 
to be used in developing a UAV were destined for, or from the 
United States, rather, or a U.S.-origin item re-exported from a 
third country, if it were destined to a prohibited end user, 
things that are called either denied entities, which are the 
list of companies that have participated, many of them, in UAV 
or other proliferation-related activities that we don't like, 
or what the Treasury Department's Office of Foreign Assets 
Control maintains are called specially designated nationals.
    If somebody were exporting something to one of those 
entities or individuals, that would be prohibited without U.S. 
Government authorization, which of course would be denied.
    Similarly, even if not to an entity or an end-user that has 
been listed by the U.S. Government, our regulations, the 
Commerce regulations have what are called general prohibitions 
on exporting just about anything that is subject to the EAR, to 
anyone and a certain group of countries if it is with respect 
to certain types of UAVs, or to just about anyone in most 
countries if there is knowledge or reason to believe, it is a 
fairly broad standard, that it is destined for a UAV 
production-related or for a weapons of mass destruction-related 
end use.
    So what he was referring to is that there are some things 
that are so common that they just simply can't be controlled. I 
understand the point, but what it failed to take into account 
are the very broad controls, the catch-all controls over 
prohibited end uses and prohibited end users.
    Mr. Tierney. So I guess that leaves us then with a question 
of who are the member participants in the missile technology 
control regime and other similar protocols and who is not?
    Mr. Wolf. Well, it is funny you should ask, because I can 
leave this for you, if you like. It is, I think, about 34 
members.
    Mr. Tierney. I would like it, if you have it there. We 
would certainly like to put that on the record.
    Mr. Wolf. I will enter it into the record, of who the 
members are.
    Mr. Tierney. Now you can tell us, is Iran in the group?
    Mr. Wolf. Well, no, no. With respect to Iran and four other 
countries----
    Mr. Tierney. Russia, China.
    Mr. Wolf. No, China is not a member of the MTCR.
    Mr. Tierney. Pakistan?
    Mr. Wolf. Pakistan is not a member of the MTCR. But a 
couple of things. With respect to Iran and Sudan and Syria and 
Cuba and North Korea, there is an absolute embargo on all items 
that are of U.S. origin or which would capture and control 
anything, whether it is for a UAV or not.
    Mr. Tierney. But no cap on China selling them similar 
technology or Pakistan selling similar technology or whatever. 
So we have it coming out of this country back and forth, but no 
international agreement to which they are a member that might 
stop them from doing that.
    Mr. Wolf. I don't know the scope of China's efforts or not 
in an open session to sell UAV-related technology to Iran, 
Pakistan or any of the other countries. But I can, with respect 
to China in particular, to the extent that U.S.-origin items 
would be used in an activity, there is something called the 
China rule, informally, or a China catch-all, depending on who 
you speak to, but really it is a requirement that for even 
items that aren't specific to UAVs, like general purpose 
avionics, if the exporter or re-exporter knows or has reason to 
believe, again, a very open standard, that the item is destined 
to China and destined for a military end use, again even if 
something that otherwise wouldn't require a license for export 
to China, a license is required from the U.S. Government before 
exporting it.
    Mr. Tierney. Thank you.
    And very quickly, Mr. Weatherington, you say the problems 
that Mr. Sullivan pointed out in terms of compatibility are 
solved. He got the message. It is already done.
    Mr. Weatherington. Sir, we are working on those challenges. 
As Mr. Sullivan pointed out, there has been very rapid growth 
in this technology area. And to provide the warfighter the 
capabilities he needed in many cases, and some that were talked 
about in the first panel, DOD procured capabilities we 
currently had. Those, in some cases, did not achieve the full 
interoperability and commonality that the Department would like 
to have so we are working on those.
    My written testimony has many examples of areas where OSD, 
working with Joint Staff and the services, are working hard to 
improve our interoperability and commonality. But today, we do 
have systems that aren't fully integrated into the manner that 
we would like them to be.
    Mr. Tierney. OK. I will get back to Mr. Sullivan and ask 
him his opinion on that in a second.
    Mr. Flake.
    Mr. Flake. I just wanted to followup on that.
    Mr. Weatherington, it is just a little baffling that, if we 
are talking about old systems that have been around a long 
time, and after 9/11 obviously the effort we spent a lot of 
money at Department of Homeland Security for interoperability, 
whether it is firemen being able to communicate with whomever 
or whatever.
    But you would think with relatively new technology like 
this that ought to be the least of the problems; that if we are 
acquiring and procuring these, that ought to be assumed, I 
guess, that there would be interoperability. So it just 
surprises me that is still a problem. Do you want to elaborate 
on that?
    Mr. Weatherington. Sure, sir. For example, the Air Force 
began procuring Predator manned aircraft systems in 1994. At 
the time we were procuring those systems, the Department did 
not have a fully interoperable data link for that class of 
system. So what was procured was a commercial C-band datalink 
that met the specific requirements of Predator but was not 
fully integrated into the DOD force structure.
    Congress has weighed in on that and provided direction to 
the Department that all the services should migrate to a common 
standard, which we call a common datalink [CDL]. We are in the 
process of doing that. That datalink has many advantages. One 
of the advantages is it is a fully digitized link. It also 
provides full encryption for the data being pushed over that 
datalink.
    The limitation was at the time we were buying Predator, a 
datalink with that capability did not exist in a form factor 
that we could get on Predator. And so the decision was made the 
Department would take some risk in some areas, datalinks being 
one of them, to provide the warfighter with the immediate 
requirement we had.
    At the same time, the Department is working very hard to go 
back and upgrade those systems, define interoperability 
interfaces where they don't exist, require those interfaces 
where they do exist across the services.
    Mr. Flake. Mr. Sullivan, do you have anything to add to 
that?
    Mr. Sullivan. Yes. I would bring up between the Army's Sky 
Warrior and the Air Force's Predator Program is probably the 
most blatant experience that we had with the ability to look at 
requirements for the warfighter in two different services and 
come to some common agreement, and it just didn't happen.
    And that was, if you refer to my written statement there, 
we tracked the history of the ability of the Office of the 
Secretary of Defense and the Under Secretary for Acquisition, 
Technology and Logistics, to try to force that. As I stated in 
my oral statement, at least a half billion dollars were spent 
to start an Army program office and a separate development 
program when the Army was looking for basically the same 
characteristics and the same capabilities that the Air Force 
had with the Predator. So that is one example.
    There is another example with the Fire Scout, where the 
Navy and the Army basically could have bought the same system, 
but the Army decided that they wanted a datalink that would be 
compatible with the future combat systems, which as we know now 
has been terminated. And in fact, the Army's version of Fire 
Scout has been terminated, too. That established two separate 
programs because they couldn't get together on the datalink.
    It is things like that. There is a high-performance kind of 
a parochial culture across the services that I think a lot of 
people understand, but in today's environment where every 
dollar counts, and in addition to that we have an opportunity 
with this new technology to be more standard and common, it is 
just our belief that the services should try harder to find 
these commonalities, especially when the Department itself is 
pointing it out to them and requesting that they work harder to 
do that.
    Mr. Flake. Thank you. That is helpful.
    Mr. Wolf, it would seem that in terms of export controls, 
as the chairman said, this is pretty much off the shelf stuff 
when it comes to the units themselves, whatever we are talking 
about. It is the communications side of it, the software, I 
guess it is. Is that where most of your focus really is? Or if 
not, why not? Because it would seem that the ability of others 
to get a hold of the software and I guess, some hardware to 
interfere with communications here would be the problem that we 
ought to worry about.
    Mr. Wolf. Going to the question of what the focus is, it 
depends on what you are talking about with respect to 
particular export-related transaction. If it is an off the 
shelf item, for example, that wasn't specially designed or 
modified for a UAV and isn't otherwise captured or listed on 
what is called the Commerce Control List, and wasn't somehow 
specifically designed or modified for a military application, 
then you are right, it wouldn't be a listed item. It would be 
an otherwise commercial off the shelf item with multiple 
applications.
    Mr. Flake. I guess, in some way, the datalink stuff, that 
is all proprietary within the military anyway. Is that correct?
    Mr. Wolf. I don't know the technology well enough to be 
able to comment, but if for some reason it was directly related 
to a military application or otherwise specifically modified 
for a military end item, then it would be controlled under the 
other set of regulations.
    Mr. Flake. Thank you.
    Mr. Tierney. Thanks.
    So Mr. Weatherington, let me get this right. I read your 
title as Deputy Director, Unmanned Warfare Portfolio Systems 
Acquisition in the Office of Under Secretary of Defense for 
Acquisition, Technology and Logistics in the Office of the 
Assistant Secretary of Defense for Acquisition.
    You are responsible for the acquisition oversight for 
Department of Defense unmanned aerial systems and associated 
subsystems, including sensors and communication links within 
all of that alphabet soup I just read on that.
    So you are the guy. So how is it, were you not there yet or 
was it under your watch that the Army and the Air Force ignored 
the directive to work cooperatively and have some commonality?
    Mr. Weatherington. Sir, I was there. And we had oversight 
over that acquisition that grew out of the requirements 
process. The Army ER/MP Program came through the JCIDS process. 
And that process first----
    Mr. Tierney. Could you spell that out for the record, 
JCIDS?
    Mr. Weatherington. J-C-I-D-S.
    Mr. Tierney. You are not going to get off that easy.
    Mr. Weatherington. And it is Joint Service----
    Mr. Tierney. The temptation is there, though, isn't it? 
[Laughter.]
    Mr. Weatherington. It is joint capability requirements 
process.
    Mr. Tierney. Thank you.
    Mr. Weatherington. When the Army requirement for ER/MP came 
in, the Department's position is that we always look to current 
solutions to meet those warfighter requirements. So the Army's 
requirement was looked at against the Air Force Predator 
Program and the JCIDS process, including up to the vice 
chairman of the Joint Chiefs of Staff, determined that Air 
Force solution did not meet the Army requirements.
    Now, the Army fully competed that program, which was core 
to the AT&L goals of maximum competition where we can get it. 
The competitor who won that program was the same competitor who 
built the Air Force Predator Program. And I would characterize 
that the Army took a good Air Force design and made it better.
    Mr. Sullivan has identified that there were unique 
requirements between the two systems that did not afford 
identical subsystem capabilities and the datalink happens to be 
one of those. The Army has a relay requirement that the Air 
Force does not have, and OSD and Joint staff spent a lot of 
time at the subsystem level doing analysis to determine what 
subsystems could be common.
    There is direction, both out of AT&L and out of Joint staff 
for the two services to buy a common video system, video ball, 
for those two programs, which is in my written testimony. We 
are undergoing a review to look at SIGINT capability on those 
two platforms that will come over in a congressional report 
very soon.
    But as to the Army simply buying the Air Force Predator 
system to meet their requirement, the Department's process 
looked at that and determined that was not sufficient to meet 
the Army requirement.
    Mr. Tierney. Was the Army requirement sufficient to meet 
the Air Force requirement?
    Mr. Weatherington. Well, sir, that is somewhat overcome by 
events because the Air Force has decided to terminate 
procurement of Predator in lieu of the larger Reaper system 
that they are procuring today.
    Mr. Tierney. So here is what I think, or what I see as a 
potential problem here or whatever, too many cooks in the 
kitchen. If we are talking about unmanned aerial vehicles and 
we have a number of different services, obviously, but we have 
one Department of Defense, and we continue to let each 
department, each service go off and do its own thing, as if 
they were all in the different military in their own right and 
working for some other government.
    I don't know, but my understanding of having the Department 
of Defense and having a Joint Chiefs of Staff's operation here 
was to get some uniformity across the way and have somebody 
make some decisions with some discipline at the top that would 
say, ``all right, you tell me what you want; you tell me what 
you want, but we are going to get one for the two or three or 
four of you or whatever that works best for everybody, and then 
maybe we could do little subsets off of it. We are not going to 
do eight or nine because yours isn't exactly like yours is.''
    That gets tremendously expensive. We don't have unlimited 
amounts of money. We just don't have it. You know that from 
your own work. So why don't we see a better structure with more 
discipline and somebody stand up to the different services and 
say, this can't go on?
    That is what I think your role at DOD is. I am not putting 
this on you. I understand you are the Deputy Director and 
deputies only get to do so much, whatever, but isn't somebody 
there thinking along those lines and saying, ``look, this just 
doesn't make sense. We haven't got an unlimited pocketbook 
here?''
    Mr. Weatherington. Mr. Chairman, that is a very fair 
question and I would articulate that the Department is doing a 
very good job of that. Again, in my written testimony, there 
are several examples of where, through OSD and Joint Staff 
encouragement, we have gotten all the services to procure 
identical or virtually identical systems.
    Mr. Sullivan commented on the Marine Corps decision to buy 
the Army Shadow system. They are buying that.
    Mr. Tierney. Well, it sounds like it sometimes works and 
sometimes doesn't.
    Mr. Sullivan, what do you say to my question?
    Mr. Sullivan. Well, I would agree with that. As we 
understand the position of the Under Secretary of Defense for 
Acquisitions, Technology and Logistics, that is the position 
that should be making these decisions, and we don't see that.
    Mr. Tierney. Instead, each of the services is making the 
decision.
    Mr. Sullivan. We don't see that happening. The services, 
and there is enough that you are getting into here that could 
be a whole different hearing on acquisitions.
    Mr. Tierney. Well, I suspect we might. I mean, somebody is 
going to set priorities here, and sometimes you have to say no. 
And so maybe this service's request isn't as important as 
somebody else's and one has to be delayed a little and the 
other has to be expedited.
    Mr. Sullivan. Yes.
    Mr. Tierney. That is, I would think, the referee's job here 
at the Department of Defense and that acquisition group on 
that.
    Mr. Sullivan. And certainly----
    Mr. Tierney. Maybe that is important, I think, for another 
hearing some day.
    Mr. Sullivan. Certainly, Mr. Weatherington, like you 
stated, I mean, this isn't the only place that this happens. 
This is all over.
    Mr. Tierney. Yes, this is not a blame game thing. You guys 
are all working as hard as you can and we appreciate that, but 
I guess it is our job, sitting where we are sitting, to start 
helping people focus a little bit here and thinking of 
different ways to do it. Prioritization would be one thing on 
that. Putting some central management and discipline into it 
would be another way to go about it.
    And the other part that we haven't got into today but will 
probably be part of any future hearing that we do on this, we 
continue right across all acquisitions to see too few really 
qualified managers, too few qualified schedulers. So that even 
when we try to have oversight, we have just been hollowed out a 
little bit. We don't find that we have the resources.
    We have talked about this with the people in various 
aspects of that agency on that. And we are going to have to 
find out what the Department of Defense's plan is to get people 
in. I know it is competitive financially. Some people get a 
better job going off to the private sector and it is hard to 
entice people. So what is our plan to turn that around? What is 
our plan so that when we go to production with something we 
have good schedulers who keep us on line, good product managers 
to keep us on line, and somebody to say, no, we are not going 
to change this 15 times along the path here, which helps 
escalate the costs all the way up. So we probably will get into 
that at a little bit more.
    Mr. Flake, do you have any additional questions you want to 
ask on that?
    I do think that this is going to probably require us to 
talk a little bit about the subsystems and the commonality 
between those uniqueness needs and things of that nature. We 
want to talk with the idea of how do we not stifle innovation 
while we are doing that and all of those things at another 
point.
    Let me give each of you the opportunity to tell me what we 
should have asked you or should have explored here that we 
should bring up at the next meeting if we can.
    Mr. Sullivan.
    Mr. Sullivan. Well, I think I just would say that it is an 
exciting area to be in. And we were just kind of going through 
all the problems with the acquisition process, and certainly 
this isn't immune to it, but what I see with unmanned systems 
is an opportunity to really capitalize on standardization and 
plug and play kind of thing.
    And I would also say that the road map that Mr. 
Weatherington's office has published has goals in it that I 
think are goals and priorities that are pretty sound, but 
somebody has to listen to them. And a lot of them drive toward 
commonality standardization as a way to reduce duplication and 
save money in the acquisition process.
    Mr. Tierney. When would be an appropriate time, Mr. 
Sullivan, for us to ask GAO to take a look at the performance 
of the Department in meeting those goals, giving them time to 
get them up and running before we start trying to critique 
them?
    Mr. Sullivan. That might be something that--well, the 
latest road map was, when was that issued?
    Mr. Weatherington. Late last year.
    Mr. Tierney. Mr. Weatherington, what do you think is a fair 
time for us to ask Mr. Sullivan's group to take a look and see 
how close you are adhering to that?
    Mr. Weatherington. Sir, that is really on your timeline.
    Mr. Tierney. Well, it is, but I am asking for a 
recommendation from you. I could ask for it tomorrow and it 
would seem unfair to you because you just passed the darn 
things.
    Mr. Weatherington. Yes, sir.
    Mr. Sullivan. We can probably discuss that with your staff 
and figure out a way where----
    Mr. Tierney. Well, let's keep Mr. Weatherington in the loop 
here so that he doesn't feel like he has an unfair assessment 
on that. I want it to be constructive. This isn't about, as I 
said earlier, playing tag with people or anything like that. We 
want to be able to look at it a little bit out and say it is 
working or it is not working, how are we doing on these things.
    Mr. Weatherington, anything else that we should add?
    Mr. Weatherington. No, sir.
    Mr. Tierney. OK.
    Mr. Wolf.
    Mr. Wolf. Just one followup on your China question about 
exports from China, for example. I forgot to mention that there 
are various statutes that give the U.S. Government the ability 
to impose sanctions against foreign companies that are engaged 
in proliferation-related activities, which would include the 
export of UAVs and other MTCR-controlled items to Iran and 
other sanctioned countries.
    Those statutes are largely administered by the State 
Department, but that is another avenue that the U.S. Government 
has in terms of trying to effect and prevent the flow of non-
U.S. origin exports from third countries.
    Mr. Tierney. Thank you. Thank you.
    Let me just leave you with this. Why don't combatant 
commands' sense of warfighting requirements drive the 
procurement requirements since we do fight jointly, rather than 
as individual services?
    Mr. Sullivan. The combatant commands should have more say 
in what the requirements are for the weapons systems, I agree. 
Goldwater-Nichols was a major piece of legislation passed a 
long time ago that was trying to matrix all that. And if you 
look at it, I think we did it very well on the operations side, 
but on the acquisition side it didn't take too well.
    Mr. Tierney. Do your goals, Mr. Weatherington, sort of get 
us back in that direction at all, do you feel?
    Mr. Weatherington. Sir, actually one of the goals 
specifically talked to meeting specific urgent warfighter 
requirements. And I would articulate that it is difficult to 
find any other technology in the Department of Defense that in 
a single decade has made such a tremendous impact on the 
warfighting capability of the Department.
    That is not to say that we have done everything perfectly, 
because in many cases we had to react very, very quickly. But I 
believe the process we have today, with the formal acquisition 
process and the opportunity for warfighters to send in urgent 
warfighter requirements get equal weight in our acquisition 
process.
    Mr. Tierney. Yes, and as I say, these oversight hearings 
are about getting things perfect in the future more so than 
beating people up over the past. So the idea is how can we help 
you. How can our oversight process help you meet the goals, if 
they are reasonable goals, of getting there so that we do do it 
in that way. And what is what we will strive for.
    We are all set. Thank you all very, very much. Sorry that 
it went so late because of the votes and things of that nature, 
but you have been extremely helpful, and I suspect we may be 
getting you back to take advantage of your expertise sometime 
in the future as well.
    The meeting is adjourned.
    [Whereupon, at 5:26 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
